<html>
<title> - CONTRABAND CELL PHONES IN CORRECTIONAL FACILITIES: PUBLIC SAFETY IMPACT AND THE POTENTIAL IMPLICATIONS OF JAMMING TECHNOLOGIES</title>
<body><pre>[Senate Hearing 111-482]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-482
 
                       CONTRABAND CELL PHONES IN 
                 CORRECTIONAL FACILITIES: PUBLIC SAFETY 
                 IMPACT AND THE POTENTIAL IMPLICATIONS 
                        OF JAMMING TECHNOLOGIES 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-406 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 15, 2009....................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Hutchison...................................     2
Statement of Senator Begich......................................    26
Statement of Senator Thune.......................................    28
    Letter, dated January 26, 2009, from Tim Reisch, Secretary of 
      Corrections--State of South Dakota Department of 
      Corrections to Hon. John Thune.............................    28

                               Witnesses

Hon. John Whitmire, Texas State Senator..........................     4
    Prepared statement...........................................     5
Richard A. Mirgon, President-Elect, Association of Public-Safety 
  Communications Officials (APCO) International..................     7
    Prepared statement...........................................     9
Gary D. Maynard, Secretary, Maryland Department of Public Safety 
  and Correctional Services......................................    11
    Prepared statement...........................................    13
Steve Largent, President and CEO, CTIA--The Wireless Association     15
    Prepared statement...........................................    16
John M. Moriarty, Inspector General, Texas Department of Criminal 
  Justice........................................................    20
    Prepared statement...........................................    22

                                Appendix

Hon. Barbara Mikulski, U.S. Senator from Maryland, prepared 
  statement......................................................    35
Citizens United for the Rehabilitation of Errants (CURE), 
  prepared statement.............................................    36
Jay Salkini, President and Chief Executive Officer, Tecore 
  Networks, prepared statement...................................    38
Letter, dated July 13, 2009, to Hon. John D. Rockefeller IV and 
  Hon. Kay Bailey Hutchison from Jim Rubenstein, Commissioner, 
  West Virginia Division of Corrections..........................    40
Letter, dated August 4, 2009, to Hon. Jay Rockefeller and Hon. 
  Kay Bailey Hutchison from Rep. Jerry Madden, Texas State House 
  of Representatives.............................................    40
Letter, dated July 13, 2009, to Hon. Jay Rockefeller and Hon. Kay 
  Bailey Hutchison, from Jon Ozmint, Director, South Carolina 
  Department of Corrections......................................    41
Letter, dated January 14, 2009, to Hon. Sam Brownback from Roger 
  Werholz, Secretary, Kansas Department of Corrections...........    42
Letter, dated January 21, 2009, to Hon. John F. Kerry from Harold 
  W. Clarke, Commissioner, The Commonwealth of Massachusetts, 
  Executive Office of Public Safety and Security, Department of 
  Correction.....................................................    42
Letter, dated January 21, 2009, to Hon. Edward M. Kennedy from 
  Harold W. Clarke, Commissioner,The Commonwealth of 
  Massachusetts, Executive Office of Public Safety and Security, 
  Department of Correction.......................................    43
Letter, dated January 20, 2009, to Hon. Blanche Lincoln from 
  Larry Norris, Director, Arkansas Department of Correction......    43
Letter, dated January 20, 2009, to Hon. Mark Pryor from Larry 
  Norris, Director, Arkansas Department of Correction............    44
Letter, dated December 17, 2008 to Hon. Mark Pryor from Larry B. 
  Norris, Director, Arkansas Department of Correction............    44
Letter, dated December 17, 2008 to Hon. Blanche Lincoln from 
  Larry B. Norris, Director, Arkansas Department of Correction...    45
Letter, dated March 3, 2009, to Hon. Bob Corker, from George M. 
  Little, Commissioner, State of Tennessee--Department of 
  Correction.....................................................    46
Letter, dated March 3, 2009, to Hon. Lamar Alexander, from George 
  M. Little, Commissioner, State of Tennessee--Department of 
  Correction.....................................................    46
Letter, dated July 27, 2009, to Hon. John D. Rockefeller IV and 
  Hon. Kay Bailey Hutchison from Anne Milgram, Attorney General 
  and George Hayman, Commissioner--Department of Corrections, 
  State of New Jersey, Office of the Attorney General, Department 
  of Law and Public Safety.......................................    47
Letter, dated July 14, 2009 to Hon. John D. Rockefeller IV and 
  Hon. Kay Bailey Hutchison from Harold Feld, Legal Director--
  Public Knowledge; Michael Calabrese, Vice President and 
  Director Wireless Futures Program--New America Foundation; 
  Sascha Meinrath, Director--Open Technology Institute; Jonathan 
  Lawson, Executive Director--Reclaim the Media; Joshua 
  Breitbart, Policy Director--People's Production House; Stephen 
  Renderos, Organizer--Main Street Project; Amanda Deloney, 
  Network Coordinator--Media Action Grassroots Network (MAG-NET); 
  Tracy Rosenberg, Acting Director--Media Alliance; Malkia Cyril, 
  Executive Director--Center for Media Justice...................    48
Letter, dated July 13, 2009, to Julius Knapp, Chief, Office of 
  Engineering and Technology, Federal Communications Commission 
  from Christopher Guttman-McCabe, Vice President, Regulatory 
  Affairs, CTIA--The Wireless Association........................    51


                       CONTRABAND CELL PHONES IN
                 CORRECTIONAL FACILITIES: PUBLIC SAFETY
                 IMPACT AND THE POTENTIAL IMPLICATIONS
                        OF JAMMING TECHNOLOGIES

                              ----------                              


                        WEDNESDAY, JULY 15, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. We will go ahead and call the hearing to 
order. This hearing is called, ``Contraband Cell Phones 
Correctional Facilities: Public Safety Impact and the Potential 
Implications of Jamming Technologies.'' And I want to thank my 
colleagues for being here today. And I know that we have 
several other committees that are meeting right now, so we may 
have some Senators coming and going.
    So what I'd like to do is just give a brief opening 
statement, then let the Ranking Member, Senator Hutchison, give 
hers, and then maybe dispense with other opening statements, 
unless Senators want to do that, and then hear from the panel, 
and then we'll have a robust discussion.
    Over the past two decades, the number of wireless 
subscribers in the United States has grown from 3.5 million to 
about 270 million. At the same time, these devices have shrunk 
from the size of a brick to a little bigger than a matchbox. 
These cell phones can do much more than make a call. They can 
take pictures, they can surf the Internet, they can send text 
and e-mail messages.
    While advances in technologies have benefited consumers, 
there's also a dark side. More and more, cell phones are being 
smuggled into prisons. Inmates are using them to continue 
criminal activity behind bars. In the worst cases, prisoners 
are organizing gang activity, intimidating witnesses, and 
ordering murders from their cells. This has to be stopped.
    Correctional officers have stepped up efforts to find such 
devices by using phone-sniffing dogs and searching prisoners, 
visitors, and prison workers. In addition, there is technology 
being deployed to detect and locate and monitor contraband cell 
phones in prison. But the question remains, are these tools 
enough?
    Some have suggested that wireless jamming technology would 
be effective in stopping the use of contraband cell phones. The 
FCC, however, has prohibited the testing of jammers by states 
as a violation of the Communications Act. In addition, groups 
have voiced concern that jamming may interfere with public 
safety and commercial wireless communications. There are also 
questions about how well jammers work and whether other 
technologies are better suited to address the problem.
    We have an esteemed panel of witnesses to provide testimony 
on these issues. I want to thank our panel for being here today 
and making your time and testimony available to us. But before 
I introduce the panel, I would like to ask the Ranking Member, 
Senator Hutchison, to make her opening statement.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman. I am very 
pleased to be here, and I so thank you for calling this 
hearing, because I will discuss the bill that I have introduced 
that I hope is going to give law enforcement and prison 
officials more capabilities to protect the public. And I look 
forward to talking about that.
    In 2008 alone, corrections systems reported startling 
numbers of confiscated phones. California reported nearly 3,000 
phones found with inmates. Mississippi had nearly 2,000. The 
problem is not unique to just states. The Federal Bureau of 
Prisons reports they confiscated more than 1,600 phones during 
2008.
    Cellular phones inside our Nation's penal system act as a 
force multiplier for criminals. A single phone can be shared 
among numerous inmates, and just a few phones inside a prison 
can lead to a coordinated attack on guards and facilitate 
escape attempts.
    According to the Justice Center at the Council of State 
Governments, three inmates, including a convicted killer, 
arranged for their escape from a Kansas facility using a 
contraband cell phone. In Tennessee, an inmate used a cell 
phone to plot an escape that resulted in the death of a 
corrections officer. And in June of last year, inmates at three 
Oklahoma correctional facilities coordinated an outbreak of 
violence across the system, resulting in three deaths and many 
injuries.
    Cell phones have been used to carry out threats and attacks 
against the public. One of our witnesses today, my friend, 
State Senator John Whitmire, was the target of a death row 
inmate using a cell phone. In one heartbreaking case, an inmate 
on trial for murder in Maryland orchestrated the assassination 
of a witness against him using a smuggled cell phone in prison. 
The witness was gunned down outside his home in front of his 
children.
    Our law enforcement officers and prosecutors have a 
difficult job to do. Can you imagine how much more difficult it 
is when witnesses might be afraid to testify because an inmate 
inside a prison can threaten them and their family from the 
comfort of their prison cell? We're seeing a dramatic rise in 
the number of ongoing criminal enterprises orchestrated from 
prison cells via cell phone, including drug trafficking.
    So what can be done? This morning, we will hear from a 
number of witnesses on the front lines. The states clearly have 
an important responsibility. But, Mr. Chairman, we do too. To 
be successful, our corrections officers need as many tools as 
we can give them to prevent the use of phones if they evade 
detection and discovery. When a single call can result in 
someone's death, we have an obligation to exhaust every 
technology at our disposal.
    At the moment, the FCC Act, Federal Communications Act, 
prohibits the use of jamming devices in all but a few cases. 
The prohibition against intentional interference serves an 
important purpose. Unregulated use of jamming technology could 
pose significant risk to commercial wireless operations and 
also public safety communications. I am mindful of those 
concerns, and I believe they are legitimate. But I'm also 
concerned that the efforts being made at the state level alone 
are not sufficient to keep pace with the scope of this problem.
    In January, I introduced Senate Bill 251, the Safe Prisons 
Communications Act. I am joined in this bipartisan effort by 
several members of the Committee, and my lead co-sponsor is 
Senator Barbara Mikulski from Maryland. The bill preserves the 
general prohibition against intentional interference with 
wireless communications. However, it creates a process for 
correctional facilities to seek a waiver from the FCC to 
operate a wireless jamming device.
    The bill does not grant this authority outright. It directs 
the FCC to conduct a robust rulemaking in which it considers 
whether it is in the public interest to allow waivers, and 
under what circumstances. The Commission will also conduct a 
device approval process that ensures that devices operate with 
the lowest possible power output and include other interference 
mitigating measures. Each correctional facility would have to 
apply individually for the ability to deploy jamming 
technology.
    So, Mr. Chairman, let me say that AT&T and Verizon, the 
largest providers at this time, have worked with our staff to 
try to address the concerns which are legitimate of the 
wireless companies. And I want to work with them and continue 
to work with them. I also look forward to working with the 
representative of an organization that represents the wireless 
communications companies, because it's in everyone's interest 
that we not interrupt service to legitimate consumers.
    However, we also need to make sure that when a person is 
incarcerated in prison, that the public should feel safe from 
that particular criminal. And that's the way it used to be 
before the sophisticated criminal and the sophisticated 
technology intervened. So I'm going to continue to work with 
everyone in this process, all of the public service providers, 
the prison and corrections facility representatives.
    But, Mr. Chairman, we do have a responsibility here, and I 
hope that after this hearing and in working with all of the 
people and entities involved in this, that we will learn enough 
that we can move my bill and Senator Mikulski's bill and the 
bipartisan support that we have in a way that walks the very 
fine line to assure that service is not interrupted for 
legitimate people, but when someone goes to prison, that the 
public is safe from that person truly. And we need to work on 
it right now. Thank you, Mr. Chairman.
    Senator Pryor. Thank you. You mentioned Senator Mikulski 
from Maryland, and Senator Mikulski wanted to be here this 
morning, but she's voting on healthcare reform in the HELP 
Committee. And she and Maryland Governor O'Malley are deeply 
troubled that prisoners have been able to use cell phones to 
commit crimes from prison. It's a problem in Maryland and 
nationwide.
    And Senator Mikulski wanted to thank the Commerce Committee 
for holding the hearing to try to address those troubling 
problems and try to find solutions to stop it. And I know that 
you and Senator Mikulski worked very hard on that.
    What I'd like to do now is turn this over to our panel of 
witnesses. We'd ask that witnesses keep their opening 
statements to 5 minutes. And there's a light system there with 
a timer for your convenience. And what I'll do is just briefly 
introduce each one, and then just go down the row and let you 
make your 5-minute opening statement.
    First, we're going to hear from the Honorable John 
Whitmire. He's a State Senator from Texas. Second, we'll hear 
from Mr. Richard Mirgon. He's the President-Elect, Association 
of Public-Safety Communications Officials--International. Then 
it'll be Mr. Gary Maynard, Secretary, Maryland Department of 
Public Safety and Correctional Services.
    Next will be a very familiar face and friend here to this 
committee, Mr. Steve Largent, President and CEO of CTIA. And 
next we will hear from Mr. John Moriarty, Inspector General, 
Texas Department of Criminal Justice. Senator Whitmire?

               STATEMENT OF HON. JOHN WHITMIRE, 
                      STATE SENATOR, TEXAS

    Mr. Whitmire. Thank you, Mr. Chairman and Members. And to 
my Senator Hutchison, thank you for bringing this timely topic 
to our attention. I've chaired criminal justice in the State 
Senate in Texas since 1993. And every time I thought I had seen 
everything, Senator, you see something else. And also, I can 
say is what you don't know is what scares you the most in this 
business.
    In that context, last October, I received a call at the 
District office in Houston, returned that phone call, and this 
individual starts describing conditions on death row. Toward 
the end of the conversation--I assumed I was talking to a guard 
that was reporting circumstances. And I asked him, ``Who are 
you and where are you?'' He said, ``I'm on death row. I'm an 
inmate.'' I said, ``Well, how are you talking to me?'' He said, 
``On a cell phone.'' I said, ``Well, how'd you get the cell 
phone?'' He said, ``$2,100 to a guard.'' I said, ``How do you 
keep it charged?'' ``Oh, I have a charger.''
    That began a conversation over a period of about 2 weeks 
with a convicted capital murderer on our death row, working 
with the Inspector General, Mr. Moriarty. Two weeks later, his 
family was arrested because they had purchased the phone, given 
it to a correction officer, and this began the extreme issue of 
how to remedy cell phones in the State of Texas. We have 
158,000 inmates located in 112 locations.
    The Governor ordered a lockdown, cell-by-cell search. 
Hundreds of phones were discovered. We actually determined that 
Mr. Tabler, the inmate who had called me, was sharing a death-
row phone with nine other death-row inmates. The other nine 
inmates were members of very violent gangs still working on the 
streets of the State of Texas: Texas Syndicate, Texas Mafia. 
They had used 2,800 minutes on that one phone the month before 
his placing a call to me.
    I can't stress to you how serious a public safety issue I 
think this is. After the arrest of his mother and grandmother, 
who had assisted in acquiring and paying the time on his phone, 
he threatened to have me killed. One of our conversations 
consisted of his talking about my family members. Law 
enforcement tells me he was threatening me, letting me know 
that he had done searches on my addresses and family members.
    So I can't stress on behalf of the people that I represent, 
your constituents across this Nation, we've got to put a stop 
to it, have zero tolerance. I'm told that the jamming is one of 
the most valuable tools. We have used pat-downs, dogs, and 
metal detectors. I've demanded zero tolerance within our prison 
system. But we need this additional tool. And I thank you for 
allowing us to discuss it.
    [The prepared statement of Mr. Whitmire follows:]

     Prepared Statement of Hon. John Whitmire, Texas State Senator
    The fastest growing and most alarming development in the 
introduction of contraband within the Texas prison system is the 
inmate's use of cell phones. I am here today to support Senator 
Hutchinson's Senate Bill 251, which would allow the jamming of 
contraband cell phones within a prison setting. Based on my personal 
experiences of having a death row inmate, convicted of two senseless 
murders, call me several times on his cell phone while incarcerated on 
Texas' death row. These calls were made from the Polunsky Unit's death 
row section, which is supposed to be the securest part of the Texas 
prison system.
    On October 7, 2008, my office received a phone message from an 
individual who claimed to be a personal friend of mine. Although I did 
not recognize the name, I returned the call later that evening. During 
the conversation, the individual admitted he really did not know me but 
he was contacting me to ask for assistance for a death row inmate he 
knew who had complaints about the conditions of his housing. Later in 
our conversations he admitted that he was that death row inmate and his 
name was Richard Tabler. Not being convinced or thinking it was even 
possible for him to make such a call, he proved his identity by holding 
the phone so that I could hear the unforgettable sounds of a prison in 
the background, the clanging of steel doors and hollering of voices.
    Now convinced that he was a death row inmate and using a cell phone 
from prison I contacted John Moriarty, the Inspector General for the 
Texas Board of Criminal Justice, who heads up the agency with police 
powers to investigate crimes in prison. We agreed that I would continue 
to accept these calls while his office opened an investigation to 
locate and seize the phone from inmate Tabler. In subsequent cell phone 
conversations inmate Tabler discussed my two daughters, where they 
lived and other details that he wanted me to know he knew. Frankly, 
that scared the hell out of me and convinced me that an inmate having 
this ability represented a major public safety issue.
    While working with John Moriarty, I continued to accept the phone 
calls to gain information to assist the investigation. Soon inmate 
Tabler began to ask favors, such as a special visit from his mother who 
lived out of state. The issue came to a conclusion on October 20, 2008, 
when a cross state police sting operation took place leading to the 
arrest of Tabler's mother when she arrived at the Austin--Bergstrom 
International Airport on a flight from her home in Georgia. Prison 
officials found inmate Tabler in possession of a cell phone on death 
row. Inmate Tabler's mother and sister were indicted with the Felony 
criminal offense of assisting an inmate to obtain a contraband cell 
phone in prison. As the investigation continued, a letter was received 
by OIG from inmate Tabler threatening retaliation by having me 
murdered.
    I then found out that this was not the first cell phone confiscated 
from death row, and that it was indeed the 19th cell phone that year 
and that 670 cell phones had been found system wide within the Texas 
Department of Criminal Justice (TDCJ) in 2008. I became even more 
concerned when it was revealed that Tabler was not the only death row 
inmates using this cell phone, as many as nine death row inmates had 
made over 2,800 phone calls from the same cell phone during the past 
month alone. I was also alarmed that some of these inmate where 
identified as members of prison gangs including the Texas Syndicate, 
Aryan Brotherhood of Texas and the Crips. The potential for an inmate 
to orchestrate an assortment of crimes and harass victims is a very 
real and present danger.
    On October 20, 2008, based on the developing investigation, 
Governor Rick Perry ordered the Texas Board of Criminal Justice to take 
immediate action to increase prison security by locking down the entire 
system and conducting individual cell searches in all 112 prison units 
and of all the 156,000 inmates.
    Due to these major security breaches within TDCJ and the presence 
of cell phones within the Death Row housing of the Polunsky Unit, I 
called an emergency meeting of the Senate Committee on Criminal Justice 
on October 21, 2008. Following the public hearing I sent a letter to 
Oliver Bell, Chairman of the Texas Board of Criminal Justice, and Brad 
Livingston, Executive Director of the Texas Department of Criminal 
Justice. It reads:

        After Tuesday's hearing concerning the overwhelming amount of 
        contraband in our prisons, I am convinced that an urgent, 
        sustained response is required to implement zero tolerance on 
        contraband. The prevalence of contraband is well documented and 
        has been widely publicized including:

    <bullet> May 2008 media report alleging that corrupt officers were 
            taking over a prison.

    <bullet> May 2008 KPRC news station of charges of prison 
            corruption.

    <bullet> May 2008 media reports of prison warden removed for 
            corruption.

    <bullet> May 2008 media reports of the Terrell Unit lockdown over 
            contraband issues.

    <bullet> May 2008 TDCJ commitment to investigate roadside clash 
            with KPRC news crew.

    <bullet> May 2008 TDCJ termination of prison captain due to 
            corruption.

    <bullet> June 2008 Criminal Justice Legislative Oversight Committee 
            held hearing on prison corruption.

        I will not even attempt to list the media coverage prior to or 
        after the hearing held October 21, 2008, along with the 
        Governor's order for a statewide lockdown of the entire prison 
        system to search for contraband. I am totally convinced that 
        unless the following improvements are immediately implemented, 
        significant safeguards will not be in place:

    <bullet> A complete search of all individuals entering a prison to 
            include the use of electronic metal detectors (only 22 
            units out of 112 have these machines), searching of 
            property and pat down searches, monitored by law 
            enforcement and ranking prison officials.

    <bullet> Cell phone jamming blockers and monitoring systems.

    <bullet> Increased and constant use of drug detection dogs or 
            systems.

    <bullet> Rewards for inmates and correctional officers reporting 
            contraband violations.

    <bullet> Vigorous prosecution of alleged violators and strong 
            punishment.

    <bullet> Maximized use of surveillance cameras with the capability 
            to digital record the video and audio. Equipment must be in 
            all areas of each unit (TDCJ has 5000 old cameras among 112 
            unit, many not operative, while Texas Youth Commission with 
            14 units has 8,000 new digital cameras with recording 
            capability).

    <bullet> Long term movements to professionalize the correctional 
            officer positions and their supervisors, with increased 
            compensation and higher entry standards.

        It is imperative that Mr. Livingston advise Mr. Bell, the 
        Legislature and the State leadership in a very detailed, 
        accurate, and urgent manor of the resources required to correct 
        the observed and documented dysfunctions within TDCJ 
        operations.

        I understand the challenges of operating the second largest 
        prison system in our nation, but we must respond to these 
        challenges with a sense of urgency and have the will to conquer 
        and overcome the barriers in front of us. The citizens of Texas 
        deserve no less than our maximum efforts and will not settle 
        for less than significant, sustained, and successful actions.

    I would love to report to this committee that the intensive actions 
taken so far have resolved the problems of cell phones in prison; 
however, that is not the case:

  <bullet> the additional money appropriated to TDCJ during our last 
        legislative session will not be enough to fix this matter in 
        the long term,

  <bullet> and the enhancements to our criminal laws to aid prosecution 
        of these matters and increased penalties will not in itself 
        solve these problems.

    Our problems and those of other states in combating contraband cell 
phones in our prison system continues and requires additional tools to 
correct this issue. Since the system wide lockdown and searches were 
completed, an additional 946 cells phones have been confiscated in the 
Texas prison system this year.
    The authority to jam cell phones in specified prison property, will 
help render these contraband items useless. Cell phone jamming is a 
required element that is needed to resolve this problem.

        STATEMENT OF RICHARD A. MIRGON, PRESIDENT-ELECT,

          ASSOCIATION OF PUBLIC-SAFETY COMMUNICATIONS

                 OFFICIALS (APCO) INTERNATIONAL

    Mr. Mirgon. Chairman Rockefeller, Ranking Member Hutchison, 
and other members of the Committee, thank you for this 
opportunity to be here today. I am Richard Mirgon and I 
currently serve as the President-Elect of the Association of 
Public-Safety Communications Officials. We're widely referred 
to as APCO International. APCO International was established in 
1935 and is the largest public safety communications 
organization in North America, representing nearly 16,000 
members worldwide.
    I come here with some unique experiences. During my career, 
I've spent 14 years as a Deputy Sheriff in Jefferson County, 
Colorado, where I spent my first year working at a large 
correctional facility. I then spent the last 18 years as a 
Director of Technology Services for Douglas County, Nevada, 
until my recent retirement in 2008.
    As a member--as Director of Technology Services, I managed 
all public safety communications, information technology, 
emergency management for the county and first-responder 
agencies. Prior to that, I spent 4 years in the United States 
Air Force, where I had some experience dealing with radio 
frequency jamming.
    All this shows that I have a full understanding of all 
these issues being discussed today. As a former Deputy Sheriff, 
I personally appreciate you scheduling this hearing to address 
an important, yet complicated, issue. This issue is very 
important to not only myself personally, but APCO 
International. And we do fully believe that something needs to 
be done to deal with these issues occurring in today's prisons.
    However, APCO's position, as we stand today, we are in 
opposition to RF jamming for a number of reasons. And I would 
like to discuss five of those reasons. First, we believe it 
puts our public safety radio systems at significant risk for 
interference, and that puts the lives of first responders at 
risk.
    A petition just recently filed with the FCC incorrectly 
asserts that these bands don't have interference today because 
the spectrum is properly regulated and managed. Yet, as many of 
you may recall, public safety is still working through 
rebanding issues brought about by unintended and unforeseen 
consequences from a major wireless carrier that has cost public 
safety hundreds of millions of dollars to correct and could, in 
the end, cost over $2 billion.
    Second, we do not believe it is effective. Since the early 
days of incarceration in jail, inmates have found ways to 
communicate with the outside, everything from coded letters and 
messages to defeating high technology inmate phone systems. 
This technology will not be any different. Some very smart 
inmate in a prison who has a degree in engineering or just 
plain creative will devise some way, such as extending the 
antenna on the cell phone, to bypass the jamming. They 
potentially could take an amplifier out of another phone and 
use it to amplify their signal to bypass any jamming in that 
type of technology.
    Third, this has been compared to how technology is used in 
other countries and how well it works. The problem is, our 
spectrum is not lined up as it is in other countries. In many 
European countries, that spectrum for public safety is entirely 
different from spectrum used for cell phones. Our spectrum is 
interleaved with the commercial wireless spectrum at this time.
    Fourth, as I've referred to earlier in a petition that has 
been filed yesterday with the FCC, cell phones, it states, can 
have multiple unintended consequences if it is not done with 
adequate planning. Will every system have adequate planning? 
Assuming it does, will it stay that way? Anyone who's managed a 
radio system has stories about someone without proper knowledge 
or experience moving an antenna, modifying an antenna, making a 
change to a system, and causing unintended interference that 
has shut down systems.
    Finally, we believe that there are more effective methods 
in dealing with cell phone use in institutions, such as here in 
D.C., where they use cell phone detectors, been working 
effectively. And for many years, cell phone interception was 
used in Nevada in casinos for casinos to derive additional 
revenue where they intercepted the signal and rerouted it. And, 
from an experienced public safety person, you couldn't make a 
cell phone call from inside a casino without that casino 
intercepting it. So we believe that there is proven, effective 
technology that would be less intrusive on public safety.
    APCO fully appreciates that the sponsor and supporters are 
merely attempting to find solutions to a growing problem. If 
Congress should choose to move forward, we would like to make 
the following regulations: ensure that there is no possibility 
of interference with public safety communications; ensure that 
there is no possibility of interference with cellular 911 
calls; eliminate the risk of diversion of cell phone jamming 
technology to illegal markets; continue to recognize the 
primary of public safety communications; require priority 
consideration of alternative methods in addressing this 
problem; provide an acceptable level of product quality; and 
potentially offer assurance bonds by the manufacturer of the 
equipment to allow for funding that could be used to correct 
any interference problems that may occur.
    In closing, once again, APCO does not support jamming as 
it's designed today and believes other methods should be used 
to resolve this issue. However, we do look forward to working 
with the prisons and other folks to help solve this problem and 
get them a solution that is workable for everyone. Thank you.
    [The prepared statement of Mr. Mirgon follows:]

 Prepared Statement of Richard A. Mirgon, President-Elect, Association 
     of Public-Safety Communications Officials (APCO) International
    Chairman Rockefeller, Ranking Member Hutchison, and other members 
of the Committee, thank you for the opportunity to be here today. As a 
former Deputy Sheriff, I personally appreciate you scheduling this 
hearing to address an important, yet highly complicated issue. I 
understand first hand the importance of combating organized criminal 
and gang-related networks inside and outside of our Nation's 
correctional facilities, as well as inside and outside of our national 
borders. Because of the established nexus between criminal enterprises 
and the funding of terrorism, I also understand that this is not just a 
matter of public safety or criminal justice, but of national and 
homeland security.
    I am Richard Mirgon, and I currently serve as the President-Elect 
of the Association of Public-Safety Communications Officials 
International, more widely referred to as APCO International. I come 
here with some unique experiences. During my carrier, I spent 14 years 
as a Deputy Sheriff in Jefferson County, Colorado where for my first 
year I worked in a large correctional facility. I then spent the last 
18 years as the Director of Technology Services/911 for Douglas County, 
Nevada, until my recent retirement in late 2008. As Director of 
Technology Services/911 for Douglas County, I managed all public safety 
communications, information technology and emergency management for the 
county and its first responder agencies. Prior to all this, I spent 4 
years in the Air Force where I had some experience with Radio Frequency 
Jamming. All this allows me to have a full understanding if the issue 
that is being debated today.
    For the benefit of those of you that do not know, APCO 
International was established in 1935 and is the largest public safety 
communications organization in North America, representing nearly 
16,000 members worldwide, most of whom are state or local government 
employees, who build, supply, manage and operate communications systems 
and facilities for police, fire, emergency medical services and other 
state and local government public safety agencies. APCO serves the 
needs of more than 100,000 professionals in the public safety 
communications industry with training, frequency coordination, 
engineering, licensing, advocacy, and networking services and 
opportunities. APCO International is the largest FCC-certified 
frequency coordinator for Part 90, Public Safety Pool channels, and 
appears regularly before the FCC on a wide variety of public safety 
communications issues. APCO includes law enforcement, fire, EMS and 
other public safety professionals, that is composed of experienced, 
front line technical experts implementing and overseeing current 
systems in the field, and is solely focused on public safety 
communications (including voice, data and video, or radio and 
information technologies). Thus, we have long provided an informed safe 
haven for public safety to research, discuss, debate and come to 
consensus on issues of significance to our profession. As part of the 
Nation's criminal justice system, our members also interact on a daily 
basis with our correctional institutions and professionals.
    When a death row inmate can illegally access a cell phone to call 
and threaten a state legislator and his family, something needs to be 
done. When criminals in lock up awaiting trial can access cell phones 
to get others to intimate or kill witnesses, something needs to be 
done. When drug trafficking leaders in prison can direct international 
drug smuggling operations from inside our correctional facilities, 
something needs to be done. Clearly, there is a need to confront this 
problem of illegal communications deriving from, among and into our 
correctional facilities. The question is, what is the best, most 
efficient and effective solution to realize the results we intend; and 
how do we do so without unintentionally creating other, possibly more 
severe problems? We look forward to working with you to help to come 
closer to these answers.
    As long ago as the mid-1990s, the Southern Poverty Law Center 
provided extensive evidence and training to our law enforcement 
community on the emerging cooperation of domestic and international 
terrorists, organized crime, gangs, international criminal enterprises, 
drug cartels and others, including prison-based recruitment of 
extremists and ongoing criminal networks. Recent intelligence and 
criminal investigations, including the emerging problems in the U.S. 
Southwest Border, provide further evidence of this ongoing threat. 
Still, I strongly urge Congress and this committee to move carefully, 
thoroughly and comprehensively in addressing illegal communications of 
prisoners with others within and beyond our correctional institutions.
    APCO's position is that we do not support cell jamming until such 
time that the vendors and user of this technology can prove that there 
will be NO negative impact on public safety networks and access to 9-1-
1 by legitimate users and that all other viable alternative have 
failed.
    APCO fully appreciates that the sponsor and supporters are merely 
attempting to develop a process to allow for the FCC to consider use of 
cell jamming technology in the correctional setting, and that the 
legislation does not intend to simply allow for acquisition and use of 
such technologies without a more comprehensive rulemaking process by 
the FCC. Following is a breakdown of the eight categories that APCO 
suggest as the primary goals and objectives for Congress to incorporate 
if it should choose to move forward with this policy area:

  <bullet> Ensure that there is no possibility of interference with 
        Public Safety Communications in or around correctional 
        facilities, especially during an emergency.

  <bullet> Ensure that there is no possibility of interference to 
        cellular calls to 9-1-1 outside the prison.

  <bullet> Eliminate the risk of diversion of cell jamming technology 
        to illegal markets as contraband for terrorists and other 
        criminals.

  <bullet> Continue to recognize the primacy of public safety 
        communications separate and apart from, as well as ahead of, 
        other non-emergency, commercial interests.

  <bullet> Require priority consideration of alternative means of 
        addressing illegal cell phone use in correctional facilities.

  <bullet> Provide for Acceptable Level of Product Quality.

  <bullet> Require Users to post an assurance bond for each system 
        deployed to insure funds are available to correct any 
        interference problems created.

  <bullet> Actively reach out, include and incorporate the experience, 
        knowledge and perspectives of those in the military, public 
        safety and national security communities (to include FBI, NTIA, 
        NIST, NIJ, TSWG, SPAWAR and others) that are testing, 
        researching and using cell jamming technology both here and 
        abroad to gain their cooperation, experience and insights on 
        this most important matter.
Interference with Public Safety Communications
    The public safety community is still dealing with the interference 
issues that developed with NEXTEL and the 800 MHz public safety 
systems, which led to a massive, multi-billion dollar project to 
relocate public safety radio systems. Thus, we must take every possible 
effort to avoid similar problems from cell-jamming equipment in prisons 
or elsewhere. Cellular jamming will likely not discriminate between 
voice and data traffic. Many public safety agencies rely heavily on 
wireless providers for their mobile computing backhaul needs. Access to 
data (tactical plans, records, GIS, documents, pictures) in the field 
can greatly affect the speed and efficacy responders have in dealing 
with a situation. The potential of jamming outside of the environment 
of a prison, even if the devices are carefully tailored to avoid public 
safety frequencies, may not just disrupt 9-1-1 calls, they may also 
disrupt responders who may need to use these cellular data services in 
response to an issue within or around the prison campus.
Interference with 9-1-1 Calls
    APCO is concerned that the use of jamming devices could block 9-1-1 
calls from wireless telephones outside the correctional facility, 
creating a serious threat to the safety of life and property. In many 
communities, the majority of 9-1-1 calls are from wireless telephones. 
We must ensure that these devices will not interfere with a cellular 9-
1-1 call to a public safety answering point.
Diversion of Cell Jamming Technology
    The current legislation establishes provisions for destruction of 
cell-jamming devices when no longer in use within prisons, thus 
addressing the problem of cell-jamming devices falling into the wrong 
hands. However, APCO encourages the committee and Congress to look at 
more accountable and that a registry is kept by a third-party entity, 
and that any device in use must be registered.
Primacy of Public Safety Communications
    The most recent draft of the legislation continues to commingle and 
equate commercial and public safety interests. APCO strongly believes 
that public safety and emergency communications are a higher level 
priority concern, and must be dealt with separate and apart from non-
emergency commercial communications issues.
Consider Alternative Means of Preventing Illegal Cell Phone Use in 
        Prisons
    Correctional facilities, wireless carriers and others should be 
required to explore other means of addressing this problem. For 
example, could prison security be enhanced to stem the flow of 
contraband into prisons? Are ``cell sniffing'' devices an option for 
finding cell phones behind prison walls? Could wireless carriers 
install ``microcells'' to capture calls from within prisons and nearby 
areas, so legitimate calls can be separated from illicit calls?
Quality of Cell Jamming Technology
    There seems to be a broad variety of equipment available to perform 
jamming. Some have military precision and that are developed by the 
defense industry, however others are relatively inexpensive devices 
which have little control aside from an on/off switch. Careful 
consideration must be given to exactly which form of device may be 
approved for these environments, as allowing a ``jammer'' may be 
allowing a device costing hundreds dollars to cripple a public safety 
system costing millions of dollars.
Incorporate Military, Public Safety & National Security Communities
    APCO understands that the same technology that is proposed for 
providing cell jamming capabilities for purposes of illegal prison 
communications is currently utilized by our military and law 
enforcement agencies for protecting against radio controlled improvised 
explosive devices (RCIEDs). As well, APCO understands that NTIA has 
already approved FBI's use of cell jamming technology for domestic 
capabilities against any potential RCIEDs, which often will be 
incorporated into Vehicle Borne IEDs that are commonly used against our 
troops and others by terrorists and insurgents in Iraq, Afghanistan and 
elsewhere. Indeed, DHS is currently funding the expansion of our 
domestic capabilities in this area.
    APCO was recently informed that NIJ and SPAWAR have also tested 
cell jamming technology for purposes of domestic use, and possibly 
specifically as it pertains to correctional settings. The most recent 
draft of the legislation only requires FCC to include ``at least one 
outside body'' in its development of pilots and testing of such 
technologies. We would encourage Congress to provide more formal 
direction and assist to FCC by specifically including those entities 
and associations with experience in researching, testing, implementing 
and overseeing cell jamming capabilities, particularly as it relates to 
potential interference with priority and emergency communications.
    We at APCO look forward to continuing to work with Congress, the 
FCC, and our criminal justice and industry partners to effectively and 
efficiently deal with the illegal smuggling and unauthorized use of 
cell phones and other means of communication into, within or deriving 
from our Nation's correctional facilities. Again, I thank you for your 
time, consideration and shared concern for our Nation's safety and 
security from crime and terrorism, including that stemming from our 
correctional facilities and occupants. As the leading association for 
public safety technology professionals, we at APCO share your 
unwavering belief that technology, when correctly governed, tested and 
applied, and when implemented and managed in an cost effective manner, 
helps us to realize significant progress in our Nation's economic 
development, public safety, and national security. I am happy to answer 
any questions that you may have at this time.

    Senator Pryor. Our next witness, Mr. Maynard.

            STATEMENT OF GARY D. MAYNARD, SECRETARY,

 MARYLAND DEPARTMENT OF PUBLIC SAFETY AND CORRECTIONAL SERVICES

    Mr. Maynard. Thank you, Mr. Chairman, members of the 
Committee. I'm Gary Maynard, Secretary of the Department of 
Public Safety and Correctional Services in the State of 
Maryland. I've provided my testimony. I'll try to make my 
remarks briefer today to allow more time for questions.
    As a member of the Association of State Correctional 
Administrators representing the 50 state corrections directors 
around the country, and as past President of the American 
Correctional Association, I am here today to support Senate 
Bill 251, Safe Prisons Communications Act of 2009.
    I've been involved in corrections for 39 years, working in 
the Federal Bureau of Prisons, and in five states, serving in 
four of those as head of the state corrections agency. For 
those of us in this field, one of the most important functions 
is the security of our prisons and the overall safety, not only 
of the institution and the people inside, but the community at 
large.
    One of the leading contributors to criminal behavior has 
been the increase in gang activity and the violence associated 
with it. Many gangs are using the prisons as a recruiting 
ground, building their numbers and jeopardizing the safety of 
our institutions and the communities to which they were 
returned. These groups seek out ways to continue their criminal 
activity from prison to the community, and most of those, 
through their use of cell phones. And the introduction of cell 
phones within our prisons are growing at an alarming rate.
    Senator Hutchison had mentioned that in California, over 
3,000 cell phones were found. That was twice as many as they 
found the previous year. Victims, witnesses, and public 
officials are being threatened, harassed, and even killed by 
prisoners with access to cell phones. And as was mentioned, 
even in our own state, a detainee, a witness who was housed in 
our pre-trial detention division, was convicted of ordering the 
death of a young man in Baltimore, a witness. He made the call 
from a cell phone within our facility.
    We're not the only state, Maryland, that has these 
problems. Senator Whitmire mentioned the threats made from 
death row. Last year in Massachusetts, a maximum security 
inmate threatened a medical staff person to bring in a cell 
phone--bring in a gun into the prison.
    In the--it was mentioned, the escape in Kansas. Even in the 
State of Arkansas this past couple of months ago, an escape of 
two dangerous inmates was facilitated with the use of a cell 
phone.
    In response to this growing problem, many states, including 
Florida, New Jersey, and others, have made possession of a cell 
phone in prison a felony, and we intend to do that in the State 
of Maryland this next year, as it's currently a misdemeanor.
    Corrections officials across the country are making every 
effort to prevent phones from entering the institutions through 
enhanced technology searches and other unconventional methods. 
The use of canines has been mentioned. We got the idea from 
Virginia and Maryland. We trained and raised our own dogs, 
trained them. Several states, West Virginia, South Dakota, 
Florida, and Arizona, are also following that example.
    In addition, many other states like us have invested in 
technology and policies to enhance our ability to control the 
introduction of cell phones. Phones are smuggled into our 
prison a variety of ways: on or within an inmate's body, by 
visitors, by staff, tossed over fences or walls, concealed 
within deliveries or shipments of food, or through contractors.
    While we're able to address each of these areas, inmates 
have a lot of time to think, and they are very innovative. We 
need to rely on all the technology we can get. We need to fight 
technology with technology. This bill would provide 
correctional administrators with the opportunity to petition 
the Federal Communications Commission and request the operation 
of a wireless jamming device. This would allow us to evaluate 
the technology and substantially improve our ability to control 
criminal behavior.
    We don't think that signal jamming is a total solution, but 
it would just provide another option to correctional 
administrators to deal with this issue. The states and the 
Federal Government have an equal interest in prison security. 
We think state correctional administrators should not be denied 
the opportunity to use a tool already available to the Federal 
Government to further secure prisons.
    In order to provide safer prisons and safer communities, we 
respectfully ask that you give favorable consideration to the 
Safe Prisons Act of 2009. In our view, illegal cell phone use 
by inmates in our Nation's prisons is an issue that directly 
impacts our country's public safety. Thank you.
    [The prepared statement of Mr. Maynard follows:]

           Prepared Statement of Gary D. Maynard, Secretary, 
     Maryland Department of Public Safety and Correctional Services
    Good afternoon Mr. Chairman and Members of the Committee. My name 
is Gary Maynard, and I serve as Secretary of the Maryland Department of 
Public Safety and Correctional Services.
    As a member of the Association of State Correctional 
Administrators, I am here today to support S. 251, the Safe Prisons 
Communications Act of 2009.
    I have been involved in corrections for 39 years, working at the 
Federal Bureau of Prisons and in five states, serving in four of those 
as head of the corrections system.
    I have also served as President of the American Correctional 
Association.
    Throughout my career I have had an opportunity to develop 
successful prison management practices. For those of us in this field, 
one of the most important functions is the security of our prisons and 
the overall safety, not only of the institution and the people inside, 
but of the community-at-large.
    One of the leading contributors to criminal behavior has been the 
recent spike in gang activity and the violence associated with it.
    Many gangs are using the prison system as a recruiting ground, 
building their numbers and jeopardizing the safety of our institutions 
and the communities to which they will return.
    These groups seek out ways to continue to operate their criminal 
activity from prison--most often through the use of cell phones. The 
introduction of cell phones within our prisons is growing at an 
alarming rate.
    For example, in California, prison officials reported that they 
collected over 2,800 cell phones last year, two times the amount found 
the previous year.
    Victims and public officials are being threatened, harassed, and 
even killed by prisoners with access to cell phones.
    Phones can be brought into prisons in a variety of ways. They are 
smuggled on or within an inmate's body, by staff, by visitors, tossed 
over the fences or walls, concealed within deliveries or shipments of 
food and supplies, or through contractors.
    Recently, a detainee who was housed within our Division of Pretrial 
Detention and Services was convicted of ordering the death of a young 
man in Baltimore. He made the call from a smuggled cell phone within 
our facility.
    Maryland is not the only state facing these types of problems. In 
Texas recently, a death row inmate used an illegal cell phone to call 
and threaten a State Senator.
    In West Virginia, a correctional officer at the Federal Prison in 
Hazelton was indicted for smuggling a phone into the facility for an 
inmate.
    This past year in Massachusetts, a maximum security inmate 
threatened a medical staff member with a cell phone in an attempt to 
coerce her into bringing a gun or other weapon into the prison--a plan 
that was prevented by quick action on the part of the Massachusetts 
Department of Correction.
    In Nevada, an inmate escaped through the use of a cell phone which 
was introduced to the facility through a compromised staff member. 
During his escape he committed three armed home robberies, a 
kidnapping, and auto theft.
    In Washington State, correctional officers have been terminated and 
are facing criminal prosecution for their role in introducing into the 
facilities cell phones that were used to support drug activity.
    Cell phones were used to plan two escapes from prisons in Kansas. 
In one of the cases, a cell phone was used to deliver instructions to 
an accomplice outside of the perimeter of the facility in order to 
avoid perimeter patrols--allowing the accomplice time to cut the fence 
and deliver weapons. One escape ended in a high speed chase and the 
second in a shoot out with local law enforcement. Although no one was 
killed, the presence of cell phones in the prison system allowed the 
threat and possibility to exist.
    In South Carolina, inmates have used cell phones to coordinate 
escapes, smuggle contraband, and commit credit card fraud for thousands 
of dollars.
The Solutions
    In response to this growing problem, many States, including Florida 
and New Jersey, have passed legislation making the possession of a cell 
phone within prison a felony--something we hope to do in Maryland this 
year, where it is currently a misdemeanor offense.
    Moreover, the corrections community has continued to expand efforts 
to prevent the flow and use of cell phones within our institutions. 
Increased efforts have been made in cell phone interdiction.
    Corrections officials across the country are making every effort to 
prevent phones from entering the institutions through enhanced 
technology, searches, and other unconventional methods.
    For example, in Maryland, we have established a Corrections K-9 
Unit--dogs trained to sniff out cell phones. Since June 2008 our K-9 
unit has detected 85 phones across the system.
    This strategy has been replicated in other states, including West 
Virginia, South Dakota, Florida, and Arizona.
    In addition, like many other states, we have invested in technology 
and policies to enhance our ability to control the introduction of cell 
phones. All of these efforts will lead to increased confiscation of 
cell phones and other contraband, but no matter what security measures 
are put in place, we can not possibly eliminate this threat altogether.
    As I mentioned earlier, phones are smuggled into our prisons in a 
variety of ways--on or within an inmate's body, by visitors, by staff, 
tossed over the fences or walls, concealed within deliveries or 
shipments of food or supplies, or through contractors.
    While we are able to implement security measures to address each of 
these areas, our inmate population has time to think of ways to beat 
the system, and they are innovative and imaginative.
    The continued use of cell phones by incarcerated individuals to 
continue their criminal behavior puts the public's safety in jeopardy.
    We need to be able to rely on a better method to prevent the use of 
cell phones. We need to fight technology with technology.
    This bill would provide correctional administrators with the 
opportunity to petition the Federal Communications Commission and 
request the operation of a wireless jamming device within a prison, 
penitentiary, or correctional facility.
    This would allow us to evaluate the technology and substantially 
improve our ability to control criminal behavior in our prisons.
    We do not believe that signal jamming will be the total solution, 
but it will put another option at the disposal of State correctional 
administrators.
    The states and the Federal Government have an equal interest in 
prison security. There is no legitimate reason why State correctional 
administrators should be denied the opportunity to seek a tool, already 
available to the Federal Government, to further secure prisons.
    Last year, the South Carolina Department of Corrections 
successfully demonstrated cell phone jamming within a prison without 
blocking cell phone service for people outside.
    Texas, Washington, D.C., and Maryland have all asked for the 
ability to pilot the same type of system. We feel certain the 
technology works.
    In order to provide safer prisons and safer communities, we 
respectfully ask that you give favorable consideration to the Safe 
Prisons Communications Act of 2009. In our view, illegal cell phone use 
by inmates in our Nation's prisons is an issue that goes to the heart 
of our country's public safety.
    Thank you.

    Senator Pryor. Thank you. Mr. Largent?

   STATEMENT OF STEVE LARGENT, PRESIDENT AND CEO, CTIA--THE 
                     WIRELESS ASSOCIATION

    Mr. Largent. Thank you, Mr. Chairman, Ranking Member 
Hutchison, and Members of the Committee. Thanks for inviting me 
to address this issue. It's an issue that CTIA and this 
Committee can fight together, the problem of contraband cell 
phones in prisons. We fully support your concern with this 
important safety issue. As we approach this problem together, 
my plea is that we find both the right policy solution and a 
technological solution that won't harm the public's legitimate 
cell phone use outside correctional facilities.
    Our members are committed to ensuring that only those who 
are legally entitled to possess and receive wireless service do 
so. This means increased cooperation among Federal and state 
law enforcement, corrections officials, and the industry, and 
we're committed to this effort.
    That's the right policy solution. What's the right 
technological solution? Put simply, the right solution is one 
that effectively prohibits access by those who should not have 
it while ensuring that law-abiding citizens and public safety 
users enjoy the most reliable service possible.
    Both from a policy perspective and from a technical 
standpoint, jamming is not the best option. For more than 80 
years, the policy of the Federal Government and this committee 
has been clear: the prevention of willful interference with 
radio signals. Yet, that is what jamming would entail. Jamming 
not only deprives the public of legitimate service, even more 
important, it can interfere with the ability of public safety 
officers, including first responders, to access their wireless 
service in an emergency.
    Instead, we ask you to consider other reasonable, 
effective, and affordable ideas that would better solve this 
problem. The first is cell detection. It identifies wireless 
devices in a given geographic area, like a prison, without 
causing problems for other wireless users operating in 
commercial or public safety bands. Cell detection will assist 
corrections officials with detection, location, and 
confiscation of unauthorized devices. In turn, this can provide 
law enforcement with call records and other types of 
information that can assist in disciplinary actions and 
criminal prosecutions.
    Cell detection also is compatible with wire-tapping. A 
recent high-profile case in Baltimore that was mentioned 
earlier, which led to the indictments of both inmates and 
correction officers, shows the results this type of 
intelligence can bring. Managed access offers a second 
alternative to jamming. Managed access solutions allow 
commercial wireless network access only to specifically 
authorized users, while blocking others.
    This solution also ensures that controls apply only within 
a prison and not outside of it. And because no jamming occurs, 
there is no interference to other users. So, from the 
industry's perspective, there are less intrusive, yet 
effective, options to consider other than jamming. And these 
superior technologies exist today and can be deployed quickly.
    And to be clear, jamming is not a panacea. Even with over-
jamming a facility, there's no promise of complete success 
inside the facility, though harmful interference with 
legitimate users outside the facility is all but guaranteed, 
especially in urban areas.
    The Congress should therefore take great care to consider 
the impact that any jamming proposal would have on both public 
and public safety users. Given this wide array of technical 
solutions, we believe states and industries should partner to 
conduct trials of these alternatives. And we're discussing this 
approach with the State of Maryland today.
    CTIA strongly supports the underlying goal of S. 251. We 
are, however, concerned by procedural rules it would impose on 
the FCC. If Congress opts to allow the use of jammers, we 
believe the proper approach would be to test first, then write 
rules, and only then allow applications to jam to be 
considered.
    We also believe the bill should favor alternative non-
interfering technologies, such as those I discussed here 
earlier, alternatives that would avoid altogether the problems 
associated with jamming and preserve law enforcement's ability 
to gather intelligence by way of wire taps.
    Finally, we suggest the policymakers should also address 
the supply and demand problem at the heart of the issue. 
Congress in many states should update their contraband statutes 
to impose tougher penalties for possession, provision, or 
support of handsets inside correctional facilities. We commend 
states such as West Virginia and Texas that have modernized 
their contraband statutes and encourage others to follow.
    Increased airport-style security checks of all parties 
entering a correctional facility will also help this problem. 
Thank you for the opportunity to appear here today. We look 
forward to working with you to address this important safety 
and law enforcement issue in a way that ends the use of 
contraband phones in prisons while preserving reliable wireless 
service for the public and public safety. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Largent follows:]

        Prepared Statement of Steve Largent, President and CEO, 
                    CTIA--The Wireless Association
    Thank you for the opportunity to appear before you today on behalf 
of CTIA--The Wireless Association.
    On behalf of CTIA and its members, let me be absolutely clear from 
the outset on two points: First, we understand the reason for today's 
hearing and fully support policymakers' efforts to keep contraband 
wireless phones out of correctional institutions. Second, our carriers 
have no legitimate subscribers residing in these institutions and no 
interest in seeing inmates use wireless services to conduct unlawful 
activities or harass or intimidate the public. We want to work with the 
Congress to develop and implement measures that will solve this problem 
and preserve the ability for law-abiding members of the public to 
continue to reliably access the wireless services provided by CTIA's 
member companies.
    Resolving this issue in a way that both protects and serves the 
public will require cooperation among Federal and state policymakers 
and administrators and industry, and I'm here to pledge the wireless 
industry's assistance in this effort. That said, it is the wireless 
industry's view that the jamming of wireless signals is not a panacea 
and raises potentially serious concerns that must be taken into account 
as Congress contemplates how to address this issue. While some parties 
have attempted to position jamming as ``the solution'' to controlling 
contraband phones in correctional institutions, we do not believe it 
should be a preferred solution given the availability of superior 
technological alternatives.
    Foremost among the concerns we have with any jamming proposal is 
the impact it could have on the ability of wireless service providers 
to reliably and effectively provide critical connectivity to public 
safety officers, including first responders who may have to enter a 
prison to fight a fire or deal with another emergency, and other 
legitimate customers. The public safety role of commercial wireless 
services is well known to the American public and members of this 
Committee. The industry provides access to 911 and E911 services, 
offers priority access service to government officials in times of 
natural or man-made emergencies, and is working to bring emergency 
alert services to market as soon as the Federal Emergency Management 
Agency (FEMA) releases the standards under which the EAS process will 
be implemented. Wireless consumers rely on their ability to use their 
wireless phones as lifelines in time of need and for their daily 
business and personal needs, and thus the possible authorization of 
jamming without due regard for the consequences of such a decision and 
the interference it may cause is of serious concern to CTIA's 
membership.
    Since enactment of the Radio Act, this Committee has played a vital 
role in shaping wireless policy, and one of the long-standing 
cornerstones of that policy has been the prevention of willful 
interference with radio signals. This was reflected in the 
Communications Act of 1934, and reiterated in the 1990 amendments that 
added Section 333 to the Act. We believe these sound policies have 
worked well, and before departing from them we urge policymakers to 
consider whether there are reasonable, effective, and affordable 
technological solutions that would better solve the problem. We believe 
there are and want to highlight several alternative solutions that 
policymakers should consider.
    The first of these alternative solutions is cell detection, a 
monitoring and tracking approach that allows for the identification of 
individual wireless devices within a correctional environment. Cell 
detection does not create interference and thus these systems can 
operate without causing problems for legitimate wireless users 
operating in commercial or public safety bands.
    With cell detection systems, prison administrators and correctional 
officers can detect, locate, and confiscate unauthorized wireless 
devices found in a correctional environment. Confiscated wireless 
devices can provider correctional authorities and law enforcement with 
call records, address information, and even photographs that can assist 
in disciplinary actions and criminal prosecutions. Alternatively, once 
illicit devices have been detected, prison officials and law 
enforcement may decide to leave them in place and arrange to monitor 
them in accordance with the wiretap statutes. As demonstrated in the 
recent high-profile case in Baltimore in which a number of inmates and 
correctional officers were indicted on the basis of information 
gathered by wiretaps, intelligence gathered in this way can be a 
critical tool that assists law enforcement in investigations and the 
prevention of criminal activity.
    Cell detection technology is available today, and the United States 
Department of Justice recently acknowledged the need to improve its 
ability ``to detect, locate, and defeat the use of unauthorized 
wireless communications devices in all operating environments, 
including in, but not limited to, correctional environments,'' adding 
that it also requires ``improved, unobtrusive means to accurately 
detect a broad spectrum of contraband to preclude its introduction into 
correctional . . . environments.'' \1\ These functionalities are not 
possible with jamming, which may thwart the use of contraband phones in 
some cases but will not prevent smuggling, identify the location of 
unauthorized devices, or assist in their confiscation.
---------------------------------------------------------------------------
    \1\ U.S. Department of Justice, National Institute of Justice, 
``High-Priority Criminal Justice Technology Needs,'' March 2009, at 16. 
Document available at http://www.ncjrs.gov/pdffiles1/nij/225375.pdf.
---------------------------------------------------------------------------
    In addition to cell detection, another promising technological 
solution to this problem involves the use of managed access. This 
approach enables a corrections facility to manage wireless access in 
controlled area, such as a prison. Managed access would restrict 
communications on the commercial wireless networks to only a subset of 
allowed users (also known as a ``white-list''). Other users are blocked 
from the commercial system access in the area. Managed access solutions 
also utilize location determination technologies to ensure that the 
controls apply only in the geographic area of the prison. And the best 
part is, because no jamming transmission occurs, there is no 
interference to other users.
    Just last week, CTIA convened a day-long meeting involving North 
American vendors of cell detection and managed access solutions \2\ and 
engineers from a number of CTIA's carrier members to discuss potential 
solutions to this issue. We hope our efforts will put the industry in a 
position to trial alternative solutions in partnership with various 
states, including the Maryland Department of Public Safety and 
Corrections, with which we have had an on-going dialogue about ways in 
which we can collaborate to resolve these issues in a way that meets 
the needs of the Department of Public Safety and Corrections and our 
customers. We believe these efforts will be successful and serve as a 
model that can be used in locations around the country.
---------------------------------------------------------------------------
    \2\ Vendors in attendance at the meeting included Airpatrol of 
Columbia, MD, BINJ Laboratories of Quincy, MA, Electronic Entities 
Group or Torrance, CA, ITT of Columbia, MD, Tecore Networks of 
Columbia, MD, CellAntenna of Coral Springs, FL, and Triple Dragon 
Communications of Vancouver, BC.
---------------------------------------------------------------------------
    Cell detection and managed-access technologies should be considered 
as superior and preferred alternatives to jamming for two critical 
reasons: because jamming will not guarantee that contraband wireless 
devices will be rendered inoperable or that convicts won't be able to 
communicate with the outside world and because jamming can cause 
harmful interference to legitimate users. Regarding the first of these 
points, jamming is not foolproof and, with either a direct line of 
sight to a cell tower or shielding from the jammer's signal, an inmate 
in possession of a phone may still be able to complete a call or send a 
text message.
    Regarding the second, and more serious of our concerns, for jamming 
to be effective, correctional administrators will have to jam their 
entire facilities, fence to fence and everything in between. Absent a 
commitment to jam the entire facility, the same corrupt individuals who 
smuggle contraband phones to inmates simply can point out where they 
can be used outside the range of a jammer. To jam an entire facility 
and deal with the constantly changing radio-frequency environment, 
which is impacted by changes in network load, cell tower locations, 
weather, and even the time of year, and the helical way in which radio 
waves propagate (which contrasts with the linear nature of prison 
boundaries), will require ``over-jamming'' in which the harmful signal 
extends beyond the facility and into areas where legitimate users may 
be impacted. We know this because the problem of illicit wireless usage 
in prisons is not unique to the United States, and in other countries 
where jammers have been employed to thwart this problem, they have 
caused significant interference beyond their intended range. The laws 
of physics are universal, and these same problems will occur here if we 
proceed with the deployment of jamming equipment, especially in areas 
where correctional facilities are located in urban and suburban 
environments or adjacent to transportation corridors. This is often the 
case, as shown in the screen-shots accompanying testimony.
    In addition to disrupting commercial wireless service used by 
persons outside a correctional facility, a system designed to jam 
wireless calls emanating from within a correctional facility could also 
jam important public safety communications. The 800 MHz public safety 
band is adjacent to the cellular band and the 700 MHz spectrum bands 
that will soon be brought into use by both commercial and public safety 
entities are interleaved with one another, thus making it quite 
conceivable that a system designed to jam commercial service might also 
jam communications used by fire departments or other public safety 
agencies that might be called upon to operate near or even at a prison. 
In contemplating the authorization of jammers, the Congress should 
consider these possibilities and exercise substantial care to protect 
both the public and public safety users.
    In our view, that care should start with a bias in favor of non-
interfering technologies. However, if jamming is to be considered, the 
proper approach would be to start with rigorous FCC lab and field 
testing, involving industry engineers, followed by the establishment of 
rules that would govern the use of certified, tested equipment. Once 
FCC rules are in place, the Commission could consider case-by-case 
requests for the use of jammers. In evaluating such requests, the 
Commission should consider what technical alternatives are available, 
what actions have been taken to prevent the smuggling of wireless 
devices into the applicant's facility or facilities, what procedures 
have been employed to locate and confiscate unauthorized devices, and 
why those procedures have proven inadequate, as well as the location of 
the facility for which authorization to jam is being sought. In areas 
where a facility is in close proximity to commercial or residential 
properties, or to major transportation corridors, jamming may not be 
appropriate even under tightly controlled circumstances and the 
Commission must weigh the public interest in evaluating requests for 
authorization to jam.
    Strong post-deployment safeguards also would be necessary in the 
event that jamming is authorized. Devices must be subject to strict 
chain-of-custody requirements and include remote shut-down capabilities 
to prevent them from falling into the wrong hands and being used 
inappropriately. Additionally, aggressive post-deployment monitoring 
should be employed to identify interference.
    Even with these safeguards in place, interference is likely, and 
public safety and wireless carriers will not know about instances of 
interference until after they occur. This forces the industry and 
public safety to react, and in an instance where a citizen's or public 
safety official's safety or well-being is at stake, reacting after the 
fact may be too late.
    While CTIA strongly supports the underlying goal of S. 251, and 
although the new draft of the legislation does contain several 
improvements over the introduced version of the bill, we remain 
troubled that the bill turns the process of testing, setting rules, and 
considering applications for authorization on its head. The bill would 
permit applications for authorization to deploy jammers upon enactment 
and require the FCC to act on any such application within 60 days, yet 
it does not require testing and the establishment of rules to be 
completed for 1 year. This process must be reversed.
    Additionally, the bill lacks any reference to alternative, non-
interfering technologies. The deployment of technology that includes 
the possibility, in fact likelihood, of interference will impose on the 
industry the burden and cost associated with regular field-testing and 
monitoring near thousands of correctional facilities; a better, less 
burdensome approach would be to require periodic, but unannounced 
testing by the FCC. The best approach, however, would be to give 
preference to non-interfering alternatives so that the problems 
associated with jamming are avoided altogether and law enforcement's 
ability to gather intelligence by way of wiretaps is preserved.
    Finally, the bill is incomplete because it fails to address the 
supply and demand problem at the heart of this issue. We urge Congress 
not to lose sight of why we have this problem or, put differently, how 
wireless handsets are getting in to correctional facilities.
    Fundamentally, as the title of the hearing suggests, this is a 
contraband issue and the Congress and many states need to update and 
enforce their contraband statutes to impose tougher penalties for the 
possession, provision, or support of contraband handsets. 
Unfortunately, even prison officials acknowledge that ``the most common 
method used by the inmate population for obtaining cell phones is 
through the use of corrupted staff'' at correctional institutions.\3\ 
This conclusion has been repeated by others, including the Texas 
inspector general, who recently told Wired magazine that ``there is no 
question that corrupt officers are involved'' in the smuggling of 
contraband wireless devices,\4\ and Antonio Gioia, a drug prosecutor 
with the Maryland State Attorney's Office in Baltimore, who told WJZ-TV 
that ``It's not a big secret. They [phones] are chiefly smuggled in by 
correctional officers.'' \5\ The motive for this activity is financial, 
as a recent report of the California Office of the Inspector General 
found that over 1 year, one ``correctional officer received 
approximately $150,000 for smuggling approximately 150 phones to 
inmates.'' \6\ Remarkably, while the officer in question was 
terminated, he faced no legal repercussions for his actions.
---------------------------------------------------------------------------
    \3\ Affidavit of John R. Campbell, Warden, Val Verde Correctional 
Facility, Del Rio, Texas, filed August 1, 2007 in Petition of the GEO 
Group, Inc. for Forbearance from Application of Sections 302, 303 and 
333 of the Communications Act of 1934, as amended, and Sections 2.803 
and 2.807 of the Commission's Rules to Allow State and Local 
Correctional Authorities to Prevent Use of Commercial Mobile Radio 
Services at Correctional Facilities.
    \4\ Vince Beiser, ``Prisoners Run Gangs, Plan Escapes and Even 
Order Hits With Smuggled Cellphones,'' Wired, May 22, 2009, available 
at http://www.wired.com/politics/law/magazine/17-06/
ff_prisonphones?currentPage=all.
    \5\ Mike Hellgren, ``Calling the Shots: Cell Phones & Crime Behind 
Bars,'' available at http://wjz.com/local/
cell.phone.contraband.2.999932.html.
    \6\ Special Report: Inmate Cell Phone Use Endangers Prison Security 
and Public Safety, Office of the Inspector General, State of 
California, May 2009, at 6.
---------------------------------------------------------------------------
    This kind of corruption and other efforts to smuggle contraband to 
prisoners must be stopped by significantly enhancing the penalties 
associated with this behavior. These efforts also must extend to those 
who facilitate the use of contraband handsets by paying for service. 
While the threat of incarceration may not deter those who already are 
imprisoned, it may cause those who provide illicit wireless devices or 
enable their use by inmates to stop for fear of facing meaningful time 
behind bars.
    We have seen the imposition of enhanced penalties work in other 
areas. Three years ago, this Committee was concerned--as we were--with 
the problem of pretexting. With our full support, congressional action 
imposing stiffer penalties, including criminal sanctions, helped to 
quickly and effectively dry up the market for pretexting. That approach 
should be tried here too, and while several states, including West 
Virginia, North Dakota, Arkansas, Texas, Florida, Nevada, and Indiana, 
have recently updated their contraband statutes to include specific 
penalties for the possession or provision of unauthorized handsets, 
many states have yet to do so. CTIA encourages other states and the 
Federal Government to enact legislation to make the possession, 
provision, or support of a contraband wireless device a felony.
    Many states also need to implement ``airport style'' security 
measures for staff and visitors who enter prison grounds. Remarkably, 
not all states require even the same level of security checks to enter 
a prison facility that citizens and staff routinely encounter when 
entering a congressional office building. In states that do require 
``airport style'' security measures as a prerequisite to entry, 
officials ``consider this interdiction method effective at curbing cell 
phone smuggling at the point of entry'' and the Federal Bureau of 
Prisons believes the screening process ``has been a good deterrent.'' 
\7\
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    Finally, in considering whether action is necessary to allow some 
limited use of jamming technology, CTIA also urges the Committee to 
ensure that the FCC actively and aggressively enforces the existing 
prohibition on the unauthorized use of jammers. Carriers and others who 
depend on the ability to use spectrum on an interference-free basis are 
encountering too many cases where individuals have engaged in unlawful 
``self-help'' to jam wireless signals, often with an impact that 
reaches far beyond their intended target.
    Just this spring, CTIA identified the use of a jammer at Mt. 
Spokane High School in Mead, Washington, where school administrators 
had installed an illegal jammer to prevent students from using their 
phones during school hours. As it happened, the jammer also interfered 
not only with communications between commercial mobile radio service 
customers, but also with the county sheriff's cross-band repeater, the 
key to enabling communications between the county's sheriff, local 
police, and the local SWAT team. One of our carriers that serves 
western Kansas and eastern Colorado experienced a similar problem when 
illegal jamming equipment was deployed by the Agate School District in 
Colorado. We recognize that the FCC's enforcement team is spread thin, 
but increased attention to, and action against, those who market or 
deploy unauthorized jammers and other devices that cause interference 
is both appropriate and necessary.
    Thank you for the opportunity to appear on today's panel. I 
appreciate the opportunity to share the wireless industry's views on 
this matter and look forward to working with you to achieve a solution 
to this matter that works to put an end to the use of contraband phones 
in prisons and preserves reliable wireless service for law-abiding 
citizens.

    Senator Pryor. Thank you. Mr. Moriarty?

    STATEMENT OF JOHN M. MORIARTY, INSPECTOR GENERAL, TEXAS 
                 DEPARTMENT OF CRIMINAL JUSTICE

    Mr. Moriarty. Mr. Chairman, Ranking Member Hutchison, and 
Members of the Committee, thank you for allowing me to be 
testify here today in support of Senator Hutchison's S. 251 on 
the jamming of illegal wireless communications.
    My office initially became aware of the severity of the 
problem in 2004, and has been conducting criminal 
investigations inside the Texas prison system since that time. 
In March of 2004, investigators from my office were working an 
organized crime case involving a violent prison gang. In the 
course of the investigation, information was developed that a 
Ranking Member of the gang had ordered a murder of another 
member from inside one of Texas's maximum security prisons by 
using an illegal cell phone.
    We intervened before the murder could take place. This case 
resulted in the arrest and conviction of a corrections officer 
for bribery and the termination of two others.
    Texas was the first in the Nation to enact legislation to 
make it a felony crime to provide a cell phone to an inmate. 
Despite these and many more aggressive steps, the problem has 
continued to grow. Texas has 158,000 inmates incarcerated in 
112 secure facilities. The larger the number of inmates 
incarcerated, the larger the illegal wireless commercial device 
problem.
    There's a false belief that when a person is incarcerated, 
they probably when a person is incarcerated, they stop 
committing crime. Many state prison systems do not have state 
police criminal investigators embedded within the system as 
Texas does, and face an even bigger challenge to investigate 
the origins of these phones.
    We have identified three primary sources of these devices: 
carried on the person of corrupt employees or contractors, 
dropped in a specific location and smuggled into the facility 
by inmates, or concealed in packages shipped in to the prison 
facilities.
    On October 20, 2008, a systemwide lockdown was ordered in 
Texas and extensive search procedures were enacted, as 
mentioned earlier by Senator Whitmire. All persons entering the 
facilities, all items, were subject to searches by use of metal 
detectors, x-rays.
    As the search procedures became more comprehensive, the 
smuggling methods also changed. The inmates--and corrupt 
employees, in some cases--have changed their operational 
techniques by resorting to secreting devices in their body 
cavities in order to defeat the search procedures. Conducting 
body cavity searches is permitted only under extreme 
circumstances due to the intrusiveness of the search. This 
search technique is not taken lightly, and persons involved in 
smuggling also know this.
    Devices have been recovered in shipments of goods delivered 
to the prisons. In one case, an air compressor was intercepted 
and 75 devices recovered from the tank. This is an ongoing 
battle for corrections departments all across the country. 
Investigations have shown that quite often, one phone may be 
used by numerous inmates, as Senator Whitmire mentioned 
earlier, using different SIM cards. As most of us know, a SIM 
card is about the size of a postage stamp. Due to the small 
size, they are very difficult to detect. Quite often, we'll 
find that there's one phone, but nine SIM cards or eight SIM 
cards being used by that one device.
    We have tried the use of some very sophisticated 
countermeasures, and it has not been successful in the prison 
environment. In Texas, investigations have revealed that the 
cost to have a cell phone smuggled inside of a prison ranged 
between $400 and $2,000 on death row.
    Since 2004, my office has aggressively investigated 2,098 
illegal wireless commercial device cases and obtained over 
2,000 subpoenas for wireless records. These investigations have 
shown that these illegal devices have been used in organized 
criminal activity involving prison gangs, drug trafficking, 
homicide, and solicitation of capital murder.
    As you can imagine, this is a massive drain on our 
investigative resources. The drug cartels operating across the 
border from Texas have a lot of assets to attempt to corrupt 
correctional staff. Investigations have revealed that inmates 
with Mexican drug cartel ties have been communicating through 
these illegal phones. The termination of the usefulness of 
these devices by permitting jamming within the confines of the 
prison is the most logical solution to ensure public safety.
    As the oversight authority for the system, it is my opinion 
that the State of Texas has utilized all available resources to 
interdict cell phones from entering and operating within the 
prisons. Signal-jamming is a key component that is missing. The 
current situation is a serious national threat to public safety 
and can only be properly rectified by passage of this 
legislation.
    Mr. Chairman, I thank you again for this opportunity and 
would be happy to take any questions you might have.
    [The prepared statement of Mr. Moriarty follows:]

      Prepared Statement of John M. Moriarty, Inspector General, 
                  Texas Department of Criminal Justice
    Mr. Chairman and members of the Committee, thank you for allowing 
me to testify here today in support of Senator Hutchinson's Senate Bill 
251 on the jamming of illegal wireless communication devices in prison 
facilities. My office initially became aware of the severity of the 
problem in 2004 and has been conducting criminal investigations on cell 
phones inside the Texas prison system since that time.
    In March 2004, investigators from my office were working an 
organized crime case involving a violent prison gang. In the course of 
the investigation, information was developed that a ranking member of 
the gang ordered the murder of another member from inside of a maximum 
security prison by using an illegal cell phone. We intervened before 
the murder could take place. This case resulted in the arrest and 
conviction of a corrections officer for Bribery and the termination of 
two others.
    Texas was the first in the Nation to enact legislation to make it a 
felony crime to provide a cell phone to an inmate. Despite these and 
many more aggressive steps, the problem has continued to grow. I 
believe that in order to fully appreciate the challenge that state 
systems face, you must understand how large several of the state penal 
systems are. Texas has 156,000 inmates incarcerated in 112 secure 
facilities. California, New York and Florida also have large numbers of 
inmates. The larger the number of inmates incarcerated the larger the 
illegal wireless communication device problem.
    There is a false belief that when a person is incarcerated they 
stop committing crime. Criminal law enforcement investigators who 
operate inside of the state prisons have a very difficult job. Unlike 
free world criminal investigators, the prison criminal investigator is 
dealing daily with hard-core, street-smart convicted felons, in most of 
their investigations. Many state prison systems do not have state 
police criminal investigators embedded within the system as Texas does, 
and face an even bigger challenge to investigate the origins of these 
phones.
    We have identified three primary sources of these devices:

        1. Carried on the person of corrupt employees or contractors.

        2. ``Dropped'' in a specific location then smuggled into the 
        facility by inmates.

        3. Concealed in packages shipped into the prison facilities.

    In one undercover investigation, an investigator from my office 
posed as a member of the Texas Syndicate prison gang. He arranged a 
meeting with a corrupt corrections officer in a parking lot in Houston 
and provided her with a cell phone, $400 and a small quantity of 
Heroin. During the meeting the officer detailed that she was working 
for all of the gangs smuggling cell phones. It is all about the money.
    In the case involving an offender from death row contacting Senator 
John Whitmire, the investigation revealed that the cell phone had 
passed through a dozen inmates or their family members before it 
reached its destination on death row.
    The extensive search procedures enacted on October 20, 2008, for 
all persons and items that enter their facilities included pat 
searches, metal detectors and x-rays. As the search procedures became 
more comprehensive the smuggling methods also changed. The inmates and 
corrupt employees in some cases have changed their operational 
techniques by resorting to secreting the devices in their body cavities 
in order to get past the search procedures. Conducting body cavity 
searches is permitted only under extreme circumstances due to the 
intrusiveness of the search. This search technique is not taken lightly 
and persons involved in smuggling also know this.
    Devices have been recovered in shipments of goods delivered to the 
prisons. In one case an air compressor was intercepted and 75 devices 
recovered from the tank. This is an ongoing battle for all the 
corrections departments in the country. Investigations have shown that 
quite often one phone may be used by numerous inmates using several 
different SIM cards. A SIM card is about the size of a postage stamp. 
In a search of one inmate, he had 4 SIM cards placed vertically into 
the heel of his shoe. Due to their small size they are very difficult 
to detect. The use of some very sophisticated counter-measure devices 
has been attempted and has not been very successful in the prison 
environment.
    The smuggling of cell phones has become a national issue in the 
corrections' public corruption arena. In Texas, investigations have 
revealed that the cost to have a cell phone smuggled inside a prison 
range between $400 to as high as $2,000 on Death Row. We have also 
developed evidence that money from foreign nationals involved in the 
anti-death penalty movement was utilized to facilitate some of these 
organized smuggling operations. Since 2004, my office has aggressively 
investigated 2,098 illegal wireless communication device cases and 
obtained 2,035 subpoenas for wireless records. On October 20, 2008, 
Governor Perry ordered a system wide lockdown. 949 cell phone 
investigations have been opened by my office since that time.
    These investigations have shown that these illegal devices have 
been used in organized criminal activity involving, prison gangs, drug 
trafficking, homicide and solicitation of capital murder to name a few 
of the offenses. As you can imagine this is a massive drain on our 
investigative resources.
    I have been dealing with this problem on a daily basis since 2004 
and have conducted extensive research into the issue, and in my opinion 
the solution is the targeted jamming of correctional facilities. The 
drug cartels operating across the border from Texas have a lot of 
assets to attempt to corrupt correctional staff to violate the law. 
Texas is very aggressive in the protection of its border, and hence the 
prison system ends up with cartel and gang members in custody. 
Investigations have revealed that inmates with Mexican drug cartel ties 
have been communicating through these illegal phones. The termination 
of the usefulness of the device by permitting jamming within the 
confines of the prison is the most logical solution to ensure public 
safety.
    As the oversight authority for the system, it is my opinion that 
the state of Texas has utilized all available resources to interdict 
cell phones from entering and operating within the prisons. Signal 
jamming is the key component missing. The current situation is a 
serious national threat to public safety that can only be properly 
rectified by passage of this legislation.
    Mr. Chairman, I thank you again for this opportunity. I would be 
happy to take any questions you might have.

    Senator Pryor. Thank you. I do have a couple of questions, 
and then I'd like to turn it over to my colleagues.
    First, for Mr. Largent, several states, including Arkansas, 
recently filed a petition for rulemaking at the FCC to permit 
wireless jamming in corrections facilities. I was wondering if 
CTIA is planning on taking a position on that? Have you all 
made a decision on whether to support or oppose that?
    Mr. Largent. Well, I would say, Mr. Chairman, that I'm not 
aware of that particular petition to the FCC. But I would tell 
you that what CTIA supports is--you know, we're not here to 
defend the actions of prisoners or having cell phones in 
prisons. What we want to see is a way to stop the use of 
prisoners using cell phones, and at the same time, protect the 
ability of public safety and the public of being able to use 
their cell phones outside those prison walls.
    And the problem with jamming as a technique, in my opinion, 
it's crude, it's unreliable, and there are better ways to do it 
so that it doesn't interfere with public safety's 
communications, doesn't interfere with the public's 
communication ability, and yet, it stops the ability of 
prisoners from using cell phones.
    Senator Pryor. Senator Whitmore, let me ask you a follow-up 
to your statement, and that is, you know, you support wireless 
jamming. Do you think there might be other, more effective, 
ways to do this and not use jamming? Do you feel like that's 
the most efficient, effective way to stop this?
    Mr. Whitmire. It would certainly appear--we have certainly 
used every traditional, innovative measure in the State of 
Texas. After the incident involving my phone call, we went to a 
lockdown, systemwide. It took about 2 weeks to do a cell-by-
cell search. All employees were patted down, metal detectors, 
dogs.
    It's not for lack of effort by the correction officers and 
their employees of trying to have zero tolerance. I can only 
tell you, if you can imagine, by meeting with correction 
officials and other state officials, I demanded action 
immediately. They told me they did the best they could, but 
we're still experiencing phones being intercepted and used in 
our prisons.
    What you have to realize, and I'm sure you do, is the 
desire of these inmates and their parties to have these phones. 
The benefits are so great. Can you imagine going to death row, 
but still able to harass law enforcement, judges, prosecutors, 
victims, carry out a very profitable criminal enterprise?
    I think we're all in agreement, it's irrefutable that the 
problem exists, it's what do you do about it? I'm going to tell 
you the State of Texas has 112 mostly remote, rural locations. 
Short of jamming and a complete shutting down of those phone 
signals, I don't think we can remedy the problem. It is a 
public safety problem. I wish I--if we had the time, but 
probably not necessary, to put a name and face with these 
people using the phones. It's the worst of the worst.
    And if they can have cell phones on death row, which should 
be the most secure area of our prison system, it just shows the 
extent of the problem. And I'm just really appealing for a 
common-sense approach. Untie the hands of prison officials and 
let them use all available tools, and address the concerns of 
the industry. But I think they can be accommodated.
    And I work close with the industry, and I'm sensitive that 
we not interfere with law-abiding citizens' use of these 
phones. But really, public safety, as we all know, is our first 
priority and our responsibility as public officials. I feel we 
have to have this tool.
    Senator Pryor. Thank you. Senator Hutchison?
    Senator Hutchison. Well, thank you, Mr. Chairman. Let me 
just ask both Senator Whitmire and Mr. Moriarty, you've heard 
the concerns raised by Mr. Largent and Mr. Mirgon, and also, 
I'd like to ask Mr. Maynard to respond here. Why aren't the 
tools that we have now--dogs, the ability to try to listen has 
been mentioned. Why aren't those tools effective enough?
    Mr. Whitmire. I would say, Senator, the size of the 
problem. We have 158,000 inmates. Waco, Texas, we're familiar 
with, is 100,000 people. We're literally locking up--
unfortunately, but necessary--one and a half Waco, Texas and 
112 locations. We have 40,000 of these TDCJ employees, 26,000 
guards.
    When humans are involved, unfortunately, and there's a 
profit motive, you're going to have corruption and the need to 
apprehend these phones. And so I don't think we quit using our 
available tools, but we've also----
    Senator Hutchison. Tell me about the guard----
    Mr. Whitmire.--got to use the next one.
    Senator Hutchison. Tell me about the guard problem. I mean, 
how----
    Mr. Whitmire. Well, Mr. Tabler, the inmate on death row, 
when I asked him how he got his phone, he said, ``$2,100 paid 
to a guard.'' Most of our guards, as you know, are law-abiding, 
hard-working civil servants who put their lives on the line 
each and every day. They take home $1,900, a starting 
correction officer. Just the sheer money alone is the 
unfortunate incentive.
    Then they get compromised, and the whole facility is in 
danger, the community where it resides. And I'm sitting in 
Houston, Texas. My family was in danger, and all citizens of 
the State of Texas.
    So it's just the size of the problem, and, like I said, 
it's common sense. You use--it's a war, is the way I would draw 
an analogy to it. You do not use available weapons if they're 
going to be useful in this battle of crime.
    Senator Hutchison. OK. Mr. Maynard, what do you think about 
what you have available now, and why is it not enough?
    Mr. Maynard. Senator, as you know, the State of Maryland is 
going to host a demonstration of all the technology that might 
be used in addition to jamming. And Governor O'Malley and 
Senator Mikulski's also petitioned the NTIA to conduct a 30-
minute demonstration of jamming, just so we could see what 
effect it has.
    I think none of the things that we do--the dogs, the--we 
use in Maryland x-ray machines for packages coming in. We use 
secure-view scanners for inmates to pass through like metal 
detectors at airports. We just--we have four of the BOSS 
chairs, the body orifice scanning system, that can detect cell 
phones within an inmate's body. We're getting 20 more of those, 
so we'll have one for every prison.
    We are using all the technology, we think. We would like to 
be able to petition the FCC to try the jamming. It would still 
be reviewed. We would have to ensure that it applied only to 
one institution. But so far, I've never seen jamming, because 
it's not legal to observe jamming unless we get permission to 
do that.
    Senator Hutchison. Mr. Moriarty, what about the expense of 
this? Is it realistic to use the technology that we have now 
for every prison throughout the United States?
    Mr. Moriarty. The Texas legislature this past session 
authorized me to use and possess detection equipment. Our plans 
on the table right now are to--we've got budgeted over a half a 
million dollars just for that one mobile set and four full-time 
employees to go around the 112 prisons. I mean, it's just--it's 
very difficult to utilize that detection equipment.
    You know, there is no expectation of privacy in the 
penitentiaries, and the State of Texas recognized that and 
authorized those tracking of those cell phones without court 
order. But it is very cost prohibitive. We've looked at a lot 
of the methods that have been mentioned here today, and found 
that with as many facilities as we have, it's not a wise use of 
taxpayer dollars.
    Senator Hutchison. Thank you. My time is up, and I'm going 
to let others--but I would like to have a second round. And, 
Mr. Chairman, I do have letters that I'd like to be submitted 
for the record from the state departments of correction, from 
South Carolina, Kansas, Massachusetts, Arkansas, and Tennessee. 
And Senator Thune has asked also to submit a letter from South 
Dakota in support of Senate Bill 251.
    Senator Pryor. Without objection. Senator Begich?
    [The information referred to is contained in the Appendix.]

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you, Mr. Chairman. And I have to say 
in all the issues we deal with in Commerce, I never anticipated 
we'd be talking about this issue, to be very frank with you. 
But it does drive some questions for me. And I appreciate the 
Ranking Member's effort in this area, and I actually support 
this idea.
    It seems like--and I'll just make a comment, and that is 
for the technology we have today and the advancements we have 
with wireless and many other types of technology, it seems the 
concerns that I've heard from Congressman Largent, Mr. Largent, 
and others that we can accomplish this.
    Because I have sat in this same hearing having telecom 
people here, telling me how advanced and the great 
telecommunications we have and the power of technology and the 
advancement in R&D, so I believe them. So I think solving the 
problems that you have are not going to be a problem, in my 
view.
    But I want to go to the basic issue, and maybe--I'm not 
sure, Mr. Moriarty, if you could answer this question. But--and 
I'm also looking to Senator Whitmire. There's 20--I'm going to 
use Texas--26,000 correctional officers, if I heard that number 
correctly.
    Mr. Moriarty. Yes, sir.
    Senator Begich. We are solving a problem which is a symptom 
of another problem, which is we have correctional officers--and 
I agree with you, Senator Whitmire. We have an incredible--all 
across this country, correctional officers are doing fantastic 
work. They're usually paid less than police officers, which is 
a problem, I think. That's just my own personal belief as a 
former mayor. I think they should be equal for the work they 
do.
    But putting that all in perspective, it seems like we're 
treating the symptom of a bigger problem, and that is we have a 
certain amount of officers that are taking monetary or other 
gain in order to supplement their own lifestyle and whatever. 
How many of the 26,000 officers, or the folks that have been 
dealt with with dealing with this contraband, have been 
prosecuted and are serving jail time?
    Mr. Whitmire. Out of--my office conducts more bribery 
investigations than any law enforcement office in the State of 
Texas.
    Senator Begich. OK. Give me a number.
    Mr. Whitmire. We aggressively--we're in the ballpark of 100 
maybe a year that we lock up. And we have our own special 
prison prosecution unit. We are very aggressive on dealing with 
the public corruption issues, whether it be drugs, cell phones, 
unlawful contact with an inmate, whatever it may be. But just 
because they resign or they walk out the door doesn't mean 
we're not coming after them with a warrant. We have a very 
aggressive program in Texas.
    Senator Begich. Let me, if I can, ask another question. I'm 
not sure I totally heard what you said. In regards to this type 
of investment, was it 500,000 per one prison that this is being 
sampled on?
    Mr. Whitmire. This is--the system that we're looking at is 
a mobile system that we can go from prison to prison on, 
looking, searching at different hours of the day and night for 
active cell phones.
    Senator Begich. And the four employees that would be part 
of that?
    Mr. Whitmire. They're investigators from my office that'll 
be specially trained on the operation of the equipment.
    Senator Begich. And reasonable pay? Good pay?
    Mr. Whitmire. Well, they're state police officer's pay.
    Senator Begich. OK. That's one point. I was trying to do a 
little contrast there. So they're paid more than a correctional 
officer?
    Mr. Whitmire. That's correct.
    Senator Begich. OK. That just makes my point from what I 
said earlier, that we need to move those pay levels up, to be 
very frank with you. And then in regards to--if you wanted to 
implement this throughout the whole system--again, I'm using 
Texas as an example. You had 112--if I heard that right, 112 
correctional institutions?
    Mr. Whitmire. Yes.
    Senator Begich. You're talking at a minimum--if they were 
mobile, but stationary, 50 million or more for equipment 
purposes and then operational?
    Mr. Whitmire. If you were to install--there are hard-wire 
detection systems also.
    Senator Begich. Sure.
    Mr. Whitmire. But it would be quite a bit more than what 
we're talking about for that one mobile system.
    Senator Begich. OK. Do you think--and, again, honestly, I 
support this legislation, because I do believe that the 
wireless technology of today has advanced in the last 2 years 
even better than it was 4 years ago, 6 years ago, and it will 
advance even more in the future. And I think when challenged, 
the wireless industry, situations like this, they will overcome 
the obstacles that may or may not be in the way, or perceived 
obstacles. So I think there's great opportunity here. So I 
support the idea. I support the concept.
    But I am concerned because of the other issue, and that's 
that this is a symptom of the core issue. You know, I have a 
hard enough time bringing a bottle of water through TSA, and it 
seems that if we focus our energy in that area, figuring out 
what we can do more with our correctional officers to ensure 
that they have the resources they need, that the institutions 
have the resources they need to ensure the highest level--when 
those doors are opened, nothing passes through.
    And I know it's hard, because we run a prison system also 
in Alaska. But it's a difficult challenge. And so I would just 
put that as more of a comment without--I'm not sure there is an 
answer. But that's a great challenge. And I think you made my 
point, that the people you're hiring, the four, are going to be 
paid more than correctional officers, because that's part of 
the equation that you get to, and that is fair and good 
compensation for people who are working very hard under very 
difficult situations now.
    So I'll just leave it at that. But thank you very much.
    Senator Pryor. Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And I want to thank 
you for holding today's hearing and thank Senator Hutchison for 
her leadership on this issue. I'm glad to be a co-sponsor of 
her bill. I do believe that the illicit use of wireless devices 
by prisoners needs to be addressed. And, as we speak, there are 
countless inmates who are using smuggled cell phones to 
coordinate illegal activity and plan escapes or intimidate 
witnesses.
    And I think this legislation allows our correctional 
facilities in this country to operate cell phone jamming 
technologies upon the approval of the FCC and also set some 
limits on those devices to ensure that they don't interfere 
with communications outside of the prison. So I think the bill 
is a step in the right direction, and it will improve the 
safety of our prisons by preventing prisoners from using 
wireless devices and communicating with those outside of the 
prison.
    And, as Senator Hutchison said, I do want to submit a 
letter for the record that I received from the South Dakota 
Department of Corrections, which endorses the Safe Prisons 
Communications Act of 2009 and supports its timely enactment.
    [The information referred to follows:]

            State of South Dakota Department of Corrections
                                       Pierre, SD, January 26, 2009
Hon. John Thune,
U.S. Senate,
Washington, DC.

Dear Senator Thune:

    I write to urge your support of the Safe Prisons Communications Act 
of 2009, S. 251 and H.R. 560.
    The bill would allow the FCC to grant waivers permitting 
correctional institutions to jam or interfere with wireless 
communications by inmates. Under the legislation, the FCC would enact 
rules and require applications before authorizing the use of such a 
device. The signal employed would be at the lowest, technically 
feasible transmission power to avoid jamming beyond the correctional 
facility perimeter.
    Jamming cell phones would be a significant aid to correctional 
officials in supervising inmate communications. As the Secretary of the 
South Dakota Department of Corrections, I fully support this 
legislation and hope you will support correctional institutions in 
South Dakota and across the Nation with your vote.
            Respectfully submitted,
                                                Tim Reisch,
                                          Secretary of Corrections.

    Senator Thune. And I appreciate the panel this morning and 
the insights that you're providing with respect to this issue.
    And I guess I would like to maybe just ask a couple of 
questions, if I might. One, to Mr. Moriarty, in your testimony, 
it's--you made it clear that Texas has made it a felony to 
provide cell phones to inmates. And I guess I'm interested in 
knowing the results of that law. If that question's already 
been asked, I apologize for repeating it. And then are inmates 
still obtaining and using some of these devices? And then I 
guess follow-up would be do you think that jamming is the most 
effective approach to stop further use of those devices?
    Mr. Moriarty. The law--we've prosecuted numerous inmates 
for possession of the phone inside the facilities, as well as 
some family members that have supplied the phones, as well as 
some correctional staff that have smuggled the phones in.
    The problem continues to grow. We think it's a useful tool 
and a deterrent in some circumstances. However, they're--when 
you're talking taking--receiving money between $400 to $2,000, 
you know, that's quite a bit of money to these employees. And, 
again, it's a small percentage, but just one of those 
individuals can put lot of phones inside one of those 
facilities.
    Again, there has been a lot of innovation. It has been 
very--in the smuggling methods, both with the inmates--and it's 
morphing as we get--step up and ramp up the searches, we're 
finding that they were using false bottoms in containers. Like 
I said, body cavities, we're--there's no end to how important 
these phones are.
    We did an undercover deal in Texas where the phone was 
$400, and there was also an introduction to some heroin. And if 
somebody had told me 5 years ago that a phone would be $400 and 
heroin $50, I'd told them they were crazy. But that's exactly 
what transpired on that undercover.
    So, I mean, it's--I'm not saying this is--jamming is the 
total, 100 percent solution to this. Texas, 22 of the 112 
facilities account for the majority of the phones, and they are 
in rural, remote areas. We've also been dealing with Federal 
law enforcement that jam on occasion, and have spoken with them 
and consulted with them, and they said that they could narrow 
that signal and jam the specified area without causing any type 
of problem.
    I think we need--the testing and moving forward on the 
testing is critical to--I won't want to interfere with any 
public safety communications also, but I think it's a very 
valuable tool that we need to put in our tool kit.
    Senator Thune. Mr. Largent, have any of these--I know that 
the state correction facilities are looking for the 
opportunities to test some of these devices. And I guess I'm 
curious of knowing what your thoughts are about how the 
wireless carriers--what role they ought to play in testing some 
of these things. And have any of your members participated in 
tests so far, of jamming technologies in some of the prisons?
    Mr. Largent. No, not in jamming technologies. We are--I 
think we're scheduled to do something with the State of 
Maryland to test some of the other technologies that are 
available, and, actually, higher-tech. And so we're in the 
process right not.
    Senator Thune. Good. And do your--I assume you believe that 
the--the carriers ought to be involved in testing, as the 
correctional facilities try to determine whether or not this is 
the most effective way?
    Mr. Largent. Actually, I appreciate you asking that 
question, because that's one of our real concerns with S. 251 
as it's currently written, and that is that the--it's 
structured in such a way that the equipment is installed in the 
prisons, and then you test, as opposed to testing before it's 
approved. And it's sort of backward, in our opinion. I think 
you need to test, make sure it works and works appropriately, 
that there's no spillover effect, which is our fear, that the 
spillover effect affects legitimate cell phone use in the 
areas. And then you can authorize it to be used in a prison 
setting once you've tested it and make sure that it works 
properly.
    That would be one change that I would make to S. 251 that I 
think would alleviate a lot of the fears that our companies 
have. And I'm really here, not to defend our companies, but to 
defend our customers, because they're the ones that are going 
to have the disruption of service.
    And there have been cases already where the cell jamming 
technology is being used in prisons in South America and India 
and other places, and there are stories of up to 200,000 
cellular customers, legitimate customers, whose service was 
disrupted. And that's the kind of thing that we don't want to 
see take place in this country. And I know nobody on this panel 
wants to see that happen, or nobody in the Senate wants to see 
it take place.
    But that's the fear that we have in just talking about cell 
jamming. We think there are other technologies that are 
available today--you can buy them today and implement them--
that would be proven technologies that would be as effective 
without jamming signals.
    Senator Thune. Let me just ask one final question. If 
jamming devices are deployed in prisons, are there--what are 
the realistic chances that those devices would fall into the 
wrong hands, either inside or outside of the prison, and be 
used, for example, against law enforcement? Is that a concern 
that any of you might have?
    Mr. Largent. Well, I can tell you that--let me just speak 
for just a second. There's cell jamming equipment that is out 
there today that has been sold illegitimately, and some 
schools, for example, I think in Colorado, were actually 
deploying them. And they didn't know it was illegal. And then 
they--you know, it was discovered they were using this jamming 
equipment, and it was disrupting public safety's ability to use 
this same spectrum. And so they quickly took it down. But it's 
available illegally now. But, again, it's not a legal piece of 
equipment in this country.
    Mr. Mirgon. Yes, sir. And what it does is in a couple 
instances where it has occurred, it shuts down what is known as 
the control channel, which makes the radio system fail. So 
you're not just impacting the people right in that area, you're 
impacting a whole system.
    But I will qualify those were illegally brought in, used 
for mischievous purposes, and did not have any of the benefits 
of proper engineering.
    Mr. Whitmire. I was just going to follow up. If we can't do 
it now--I mean, I don't know how you're giving live examples of 
how it's creating problems because it's prohibited, the 
measures that we're asking for. And we can speculate and 
certainly work with the authorities to safeguard against the 
instruments in the wrong hands, but we know for a fact today 
that the cell phones are in the wrong hands of convicted, 
violent offenders. And like so many things I know, unless 
they--I try to do what's for the greater good.
    And while we share the concerns of the industry and need to 
work with them hand-in-hand to make certain that our law-
abiding citizens' reception is not interfered with, we 
certainly need to address the illicit use of it. Because it is 
growing, as Mr. Moriarty pointed out.
    And, you know, talking about additional penalties, we've 
done that. But you're already serving a life sentence or a 
death sentence. It's not much of a deterrent to go ahead and 
make that a felony. It has hopefully impacted the employees, 
but then there, the profit motive takes over. So we've got to 
address that.
    But I'm just urging for a common-sense approach to untie 
the hands of--you know, it's amazing. Mr. Largent mentioned 
that we ought to test it before it's installed. Well, I would 
suggest to Mr. Largent, he ought to talk to the Federal 
officials that are already using it. That would be an 
appropriate test that I think would be used.
    And I would just say, as a state official, it's nuts for me 
to hear that our Federal prison officers and law enforcement 
can use an instrument that we're now requesting permission to 
use. So it gets back to common sense, I guess.
    Mr. Largent. I would like to address that. If I were the 
Senator, I would be as motivated and irate as he is about not 
addressing this issue. And I am totally sympathetic with what 
took place in his situation. I would say, first of all, that 
the jamming equipment that I referenced in my statement just a 
minute ago is in place in India and South America and other 
countries, but not in this country. So I would clarify that.
    Mr. Whitmire. Would it be identical? Excuse me, if I 
could--I mean, are you talking about the exact----
    Mr. Largent. You know, jamming is a technology that's ages 
old. So I don't know that it would be the same technology or 
not. But--so anyway, I would like to just clarify that point.
    Senator Thune. Thank you, Madam Chair.
    Senator Hutchison. Thank you. The Chairman will be back in 
just a few minutes. But let me ask--well, let me first state 
that we have another draft. Having worked with all of the 
interested parties who are willing to come to the table, we do 
have a new draft of the bill that will be coming out next week. 
And one addresses one of your concerns, Mr. Mirgon, that there 
would be a documented process for shutting down a jamming 
device completely if there is any emergency--a fire or anything 
where first responders would be affected. And we would clearly 
want to make that for the whole area that that particular band 
would be serving. So that is a part of our next draft of the 
bill.
    And we also have one that addresses your concerns, Mr. 
Largent, and that is that there would be inventory controls--
well, first of all, there would be tested applications required 
before FCC approval. You wouldn't have the rules going forward 
without the testing of the devices, which I think certainly was 
a legitimate concern.
    And then we also have required inventory controls for the 
jammers once they're deployed so that you would know if the 
jammer went into another person's hands and was then being used 
for illicit purposes. And there would be a requirement that the 
jamming, which does have the waiver, would be destroyed and 
certified as destroyed to the FCC when the waiver expires.
    So we want to work with all of you to assure that we put 
every safeguard in place in the bill. And I would just ask Mr. 
Mirgon and Mr. Largent if there are other areas that you would 
like to see addressed, will you work with us to try to do that? 
Because we don't want to in any way harm our first responders, 
of course, or our public safety capabilities. But also, 
considering the testimony we've heard and the experiences that 
are being generated all over our country right now, we do want 
to address this issue.
    So, Mr. Mirgon, Mr. Largent, what other areas would you 
like to see us sit down and address?
    Mr. Mirgon. One of the things I--and, first off, I 
appreciate your comments, and thank you for your willingness to 
work with us. And clearly, our position is, we do want to work 
with people to help solve this problem. As a public safety 
professional, I hear these stories. I've experienced many of 
them firsthand. Been there, done that. And I feel for these 
people, as managers, having to try to deal with this.
    But one of the things that we might want to consider is 
that ensuring that these systems can only be worked on by the 
manufacturer or trained technicians, and they somehow be sealed 
and documented.
    Because, unfortunately, I have had RF engineers work for me 
who go in and work on a piece of equipment they don't know 
about. They make modifications to--you know, it's like the Tim 
the Tool Man type mentality. I can make this better. And they 
turn up the power, and all of the sudden, you've shut down 
somebody else's system. So I think that would help alleviate a 
lot of concerns.
    Senator Hutchison. Very good point. We'll do that. We'll 
make that happen. Mr. Largent?
    Mr. Largent. Well, I would just say that RF signals in 
general--and I'm not an electrical engineer--but I'm told 
they're erratic and they're subject to change based upon the 
seasons of a year, whether trees have leaves on them or not, 
and they can be erratic and unpredictable. And, you know, I 
think as long as the testing could incorporate those different 
scenarios, that it would probably be OK.
    But our concern is that you could test in the summer when 
trees have leaves and the signals may not be a problem outside 
the walls of the prison. And then in the wintertime, when the 
trees lose their leaves, the signals are a problem. And that's 
just the nature of RF signals, from my understanding. Again, 
I'm not a expert in radio signals or RF signals. But that would 
be one concern that I would have, just that testing period that 
you're referring to would test under all scenarios so that we 
can be confident that, you know, public safety's not going to 
lose a signal or the public's not going to lose the ability to 
make calls in and around a prison.
    Mr. Mirgon. And if may tag onto that, I think that's a 
great idea. I believe there's a simple solution for that, that 
the state radio shops have the ability to measure signals, and 
if there was a quarterly requirement to do just a drive-by----
    Senator Hutchison. To test.
    Mr. Mirgon.--and test them, you could probably do that 
testing in under an hour to help certify that the signals are 
maintaining within those parameters.
    Senator Hutchison. I think these are both very doable and 
very important. And we will work with you to really put the 
bill in shape so that we can pursue both purposes. Let me just 
ask in the last minutes if there's anything from the three 
representing the criminal justice system, anything that hasn't 
been put in the record that you would like to see added as we 
wrap this up?
    Mr. Whitmire. No, ma'am.
    Senator Hutchison. All right. Let me just say that Senator 
Begich has now joined as a co-sponsor of the bill. And I want 
to read the list of co-sponsors. Senator Mikulski, as we 
mentioned earlier, is the lead Democrat. Also, Senator Cochran, 
Senator Lieberman, Senator Thune, Senator Wicker, Senator 
DeMint, and Senator Vitter are co-sponsors of the bill.
    So I hope that we can work together. Oh, and, by the way, 
the bill has been introduced in the House, as well, and has 
upwards of 40 bipartisan co-sponsors. So it's an issue that is 
very important for law enforcement in the states. And if we can 
work with the FCC to give the states another tool, and our 
Federal prison system, as well, I think people ought to have 
the right to know that when someone goes to prison, they are 
safe from that person, and particularly victims. I cannot 
imagine a victim who breathes a sigh of relief that a rapist or 
an attempted murderer is in prison, and all of the sudden, the 
person is not safe, even though the person is behind bars. 
That's unacceptable in our country, and I want to do everything 
we can to stop this problem.
    So, Mr. Chairman, thank you for holding the hearing. And I 
look forward to working with everyone at the table to pursue 
our legislation this year. Thank you.
    Senator Pryor. Well, thank you. And thank you for your 
leadership and your attention on this issue, because you're 
making a great difference all over the country.
    Let me just say that I appreciate the panel for being here. 
I appreciate your input, your thoughts, your ideas. As Senator 
Hutchison said, she's really wanting to work with all sides to 
try to get this bill done as quickly as possible and get it 
moved to the floor whenever it's appropriate. So I'd just 
encourage you all to reach out to her with your ideas as 
suggestions, because I know her and she's very focused on this 
and wants to get this done. The last thing I was going to say 
is that there were a few Senators, because of conflicts in 
scheduling, that couldn't be here today. Some may want to 
submit questions in writing. And we're going to leave the 
record open for 2 weeks, and in the event that they do ask 
questions, we would appreciate the panelists to get those back 
to us as quickly as possible.
    With that, we're going to adjourn the hearing. And, again, 
thank you very much for being here.
    [Whereupon, at 11:12 a.m., the hearing was adjourned.]
                            A P P E N D I X

Prepared Statement of Hon. Barbara Mikulski, U.S. Senator from Maryland
    Good morning. I want to thank Chairman Rockefeller and Senator 
Hutchison, for holding this important hearing today. Thank you for 
inviting me to testify on the Safe Prisons Communications Act of 2009 
(S. 251). This is a critical piece of legislation of which I am a proud 
to be a co-sponsor. I want to talk about why we need to consider and 
pass this bill now.
    All Marylanders were shocked and dismayed to hear about this new 
organized crime practice of using cell phones in prisons to conduct 
criminal activities in communities on the outside while criminals enjoy 
a lavish lifestyle on the inside. As one reporter described it, from 
their prison cells and with the help of corrections staff, members of a 
violent gangs feast on salmon and shrimp, sip Grey Goose vodka and puff 
on fine cigars, all while directing drug deals, extorting protection 
money from other inmates, and arranging attacks on witnesses and rival 
gang members. And ordering a hit on a Maryland father of two.
    On July 10, 2007, Carl Lackl, a 38-year-old father of two, was 
executed in front of his home in Baltimore County, Maryland. Lackl was 
an eye-witness to multiple murders who was supposed to testify at the 
murder trial set to begin on July 18, 2007. The murder hit was ordered 
on Lackl by Patrick Byers, Jr., who was incarcerated in a Baltimore 
jail. The ordering of the hit was made via a text message sent to the 
killers from his cell phone, which had been smuggled into prison.
    Maryland's talented Governor Martin O'Malley wanted to spring into 
action to jam cell phone transmissions from prison. To his dismay, he 
found he needed a waiver from the Federal Communications Commission 
(FCC) to protect the people of Maryland. He is right to be dismayed.
    In 2008, Maryland correction officers confiscated 847 illegal 
phones. This is not just a Maryland problem. This is a national 
problem: California correction officers confiscated 2,809 phones; 
Mississippi correction officers confiscated 1,861 phones; and Federal 
prison officials have found 1,623 phones. Not all phones are being 
found and the crime spree continues.
    For these reasons, I have joined this bipartisan effort and am 
speaking for Maryland's can-do Governor, for the citizens of Maryland, 
and for the law enforcement officers who work so hard to catch and 
prosecute criminals to keep communities safe. They think they've 
imprisoned the criminals, but the criminals continue to operate out of 
jail with their smuggled cell phones.
    That's why I'm a cosponsor of the Hutchinson bill. The Safe Prisons 
Communications Act allows a state to petition the FCC to block the use 
of cell phones from prison. It protects citizens. Current FCC law 
leaves citizens unprotected because it forbids the use of cell phone 
jammers in State and Federal prisons. The Hutchinson bill simply 
creates a mechanism to waive this ban when cells phones are being used 
illegally by prisoners. It is not a blanket waiver for all prisons. 
Each prison must individually make its case to the FCC as to why the 
jammer is necessary. Our bill double protects in case of any unintended 
consequences so neighboring communities are not impacted by the cell 
jammer. A prison can only jam if it does NOT interfere with emergency 
communications or any services outside the prison.
    Prison officials are trying their best to detect and locate all 
illegal cell phones using canines and conducting random top to bottom 
searches of jails. Their efforts have been somewhat successful and many 
illegal cell phones have been found. However, enterprising criminals 
have been able disassemble cell phones by hiding the parts, thus 
evading detection. Prisoners are continuing to find ways to use cell 
phones illegally and continuing to commit violent crimes. Prison 
wardens need more options to combat illegal cell phone use. This bill 
does exactly that. It provides another means to stop use of illegal 
cell phones by allowing prisons on a case by case basis to use cell 
jammers. I am proud co-sponsor of this legislation because it will help 
make our neighborhoods safer and give prison necessary tools they need.
    Speaking later today is Gary D. Maynard, the Secretary of 
Corrections for my home state of Maryland. He has only been with the 
State of Maryland for 2 years, but he brings 30 years of experience in 
state corrections systems. He began his career as a corrections 
counselor and worked his way up to serve as the warden of several 
prisons. More recently, he served as the Director in the Departments of 
Correction in Iowa and South Carolina. Secretary Maynard knows the 
problems facing jails and what solutions work. I thank him for being 
here.
    Thank you, Chairman Rockefeller and Senator Hutchison, for this 
opportunity to share why I think this legislation is necessary in 
combating use of illegal cells phones by prisoners. I urge my 
colleagues to support this legislation and move this bill swiftly 
through Committee and to the floor for a vote by the full Senate. We 
can't afford another tragedy like that the Lackl family had to endure.
                                 ______
                                 
Prepared Statement of Citizens United for the Rehabilitation of Errants 
                                 (CURE)
    Citizens United for the Rehabilitation of Errants (``CURE''), a 
nationwide grassroots prison reform organization with chapters in most 
states, submits this testimony in connection with the July 15, 2009 
hearing held by the Senate Committee on Commerce, Science and 
Transportation on S. 251, the Safe Prisons Communications Act of 2009, 
introduced by Sen. Kay Bailey Hutchison (R. Tex.). CURE recommends that 
the Commerce Committee incorporate H.R. 1133, the Family Telephone 
Connection Protection Act of 2009, into its consideration of S. 251. 
The long distance telephone rates charged to prison inmates and their 
families are exorbitant and make it harder for inmates to maintain 
critical family and community connections that are so crucial to 
rehabilitation. H.R. 1133 will ensure that the FCC addresses this issue 
effectively. Lower long distance inmate telephone rates would reduce 
the incentive for inmates to bring concealed cell phones into prisons 
and thus would help to address the security problem that S. 251 is 
designed to ameliorate.
Background: Inmate Telephone Rates Keep Rising While Other 
        Telecommunications Rates Have Declined
    Prison inmates generally pay some of the highest long distance 
rates in the country. These rates result from the exclusive service 
agreements that prison administrators typically enter into with 
telecommunications carriers for inmate calling services. As part of the 
bidding process, competing service providers generally are expected to 
offer generous commissions to the prison administrator or state 
correctional agency or treasury for the right to provide exclusive 
service to the facilities. The winning bidder is typically the service 
provider that offers the highest commission rates, rather than the 
lowest service rates, and those commission rates often exceed 45 
percent and sometimes reach as much as 65 percent of gross revenues. 
The winning bidder then charges excessive rates for inmate calls in 
order to cover the huge commissions that it has agreed to pay.
    Thus, as the FCC has recognized, this approach ``perversely'' has 
the distorting effect of allowing competitive pressures to drive prices 
up, rather than down, ``because the bidder who charges the highest 
rates can afford to offer the confinement facilities the largest 
location commissions.'' \1\ This upward trend in commission payments 
and rates has continued for years. Typical long distance inmate collect 
calling rates now include a per-call charge as high as 53.95 and a per-
minute charge of as much as $0.89, and CURE has seen inmate collect 
rates of $4.28 plus $0.98 per-minute, when the typical long distance 
rates available to residential subscribers or calling card users are a 
few pennies per minute. Inmate telephone service now stands alone as 
the last remaining telecommunications monopoly niche. At many prison 
facilities, inmates also are limited to collect calling services and 
are not offered the cheaper alternative of debit card or debit account 
calling services, in which the prisoner establishes an account with the 
prison commissary to pay for telephone calls.
---------------------------------------------------------------------------
    \1\ Implementation of the Pay Telephone Reclassification and 
Compensation Provisions of the Telecommunications Act of 1996, Order on 
Remand and Notice of Proposed Rulemaking, 17 FCC Red 3248, 3253 (2002).
---------------------------------------------------------------------------
    The inflated rates resulting from these exclusive service 
agreements, excessive commissions and ``collect call-only'' 
requirements make long distance telephone calls from prison inmates 
unaffordable. At current rates, one hour of conversation per week can 
result in a monthly telephone bill of $300, a huge financial burden for 
the innocent low income families and loved ones receiving and paying 
for inmate collect calls. Prisoners are forced to restrict their 
calling, and their families are forced to restrict their acceptance of 
collect calls, effectively depriving inmates and family members of 
their most reasonable means of communication and further straining the 
family and community ties necessary for released inmates' 
rehabilitation.
    For years, prison inmate advocates have pressed for regulatory 
mechanisms that would provide relief from the exorbitant rates and 
limited service options for inmate long distance calling services. CURE 
and The Coalition of Families and Friends of Prisoners of the American 
Friends Service Committee (``AFSC'') have stressed the need to reduce 
the burden of oppressively high inmate calling rates, which is borne 
largely by economically disadvantaged relatives and friends of inmates, 
often located far from the facilities where the inmates are 
incarcerated. Not only do these excessive rates directly injure the 
non-inmates paying them, but, as studies cited by CURE and AFSC 
explain, they also work to the detriment of society by weakening 
rehabilitative ties that reduce recidivism, preserve families, ease 
prison tensions and promote societal efforts to rehabilitate ex-
offenders. Moreover, these exorbitant rates are imposed on a captive 
market that is unable to afford them, while all other consumers enjoy 
the benefits of increased competition, reduced rates, and choices in 
telecommunications services.
    In 2000, CURE organized a nationwide campaign, the Equitable 
Telephone Charges (``eTc'') Campaign, to mobilize prisoners' family 
members and other concerned citizens to advocate for more reasonable 
rates. The eTc Campaign has had significant success in persuading state 
authorities to reduce inmate service rates, especially intrastate and 
local rates, and making debit and prepaid calling options more 
available to prisoners. Excessive interstate long distance inmate 
rates, however, remain a substantial burden in all but a handful of 
states.
    The need to act on this issue is now widely recognized. In 2005, 
the American Bar Association adopted a recommendation urging all levels 
of government to ``afford prison and jail inmates reasonable 
opportunity to maintain telephonic communication with the free 
community, and to offer telephone services in the correctional setting 
with an appropriate range of options at the lowest possible rates.'' 
\2\ The recommendation was accompanied by a report citing studies 
demonstrating the importance of regular telephone communication between 
prisoners and family and friends for prisoners' rehabilitation and 
eventual return to the community as law-abiding citizens.
---------------------------------------------------------------------------
    \2\ American Bar Association, Recommendation Adopted by the House 
of Delegates (Aug. 8-9, 2005). See also Catherine Anderson, Chair, 
Criminal Justice Section, American Bar Association, Report (Aug. 2005).
---------------------------------------------------------------------------
    On February 1, 2006, the American Correctional Association approved 
an amended formal policy statement recognizing that ``offenders should 
have access to a range of reasonably priced telecommunications 
services.'' \3\ A report released in June 2006 by a diverse national 
prison reform commission, including correctional and other public 
officials, stresses the negative effects that high inmate telephone 
rates have on the family and community ties necessary to prevent 
violence and the need to ``smooth the process of reentry and make it 
more likely that prisoners will succeed after release.'' \4\ It urges 
policymakers to ``support family and community bonds . . . by 
minimizing the cost of prisoners' telephone calls'' \5\ and to ``end 
practices such as'' extracting huge commissions from inmate telephone 
service providers and limiting inmate telephone service to collect 
calling ``that interfere with the maintenance of critically important 
family and community ties.'' \6\
---------------------------------------------------------------------------
    \3\ American Correctional Ass'n., Public Correctional Policy on 
Adult/Juvenile Offender Access to Telephones (Jan. 24, 2001; Feb. 1, 
2006), http://www.aca.org/government/policvresolution/ (select 
``Policy,'' type in ``Access to Telephones'' and click on ``Search'') 
(last visited February 14, 2007).
    \4\ Commission on Safety and Abuse in America's Prisons, 
Confronting Confinement, 35-36 (John J. Gibbons & Nicholas de B. 
Katzenbach, Comm'n Co-Chairs) (June 2006).
    \5\ Id. at 36.
    \6\ Id. at 36-37.
---------------------------------------------------------------------------
H.R. 1133 Would Further Rehabilitative Goals
    H.R. 1133 contains findings that prisoners' families and loved ones 
ultimately pay for most calls from prisoners, whether collect calls or 
otherwise. The bill finds that the excessive rates imposed on 
``[i]nnocent citizens . . . simply due to having a family member or 
loved one who is incarcerated'' are ``a burden on interstate 
commerce.'' \7\ The bill also finds that the lack of competition and 
the high commissions paid by service providers to administrators are 
responsible for the high rates. Excessive inmate service rates ``weaken 
the family and community ties that are necessary for successful reentry 
into society'' by released prisoners and burden the rehabilitation that 
``reduces crime and the future costs of imprisonment.'' \8\ In effect, 
excessive inmate service rates generate more social and economic costs 
for all of society, far beyond the excessive calling costs.
---------------------------------------------------------------------------
    \7\ See Family Telephone Connection Protection Act of 2009, H.R. 
1133, 111th Cong., 1st Sess.  2(5), (10) (2009).
    \8\ Id.  2(13), (14).
---------------------------------------------------------------------------
    H.R. 1133 reaffirms the FCC's authority to regulate inmate 
telephone service and to implement the types of relief described in the 
bill. It would require that the FCC consider imposing, among other 
measures: maximum interstate calling rates; a requirement that inmate 
telephone service providers offer debit calling as well as collect 
calling services; a prohibition of call blocking by an inmate service 
provider solely on the ground that the service provider has no contract 
with the local telephone company serving the intended call recipient; 
and a prohibition of commission payments by inmate calling service 
providers to prison administrators and state correctional agencies.
    The ABA has endorsed the proposed legislation, pointing out ``the 
human costs'' of excessive inmate rates,\9\ as have leading 
newspapers.\10\ The ABA pointed out that ``the family and friends of 
incarcerated people,'' rather than the prisoners themselves, 
``regularly shoulder the high cost of prison telephone services,'' 
which makes it more difficult to achieve ``the penological and societal 
benefits that occur when incarcerated people arc able to maintain 
contact with the outside world.'' \11\ The ABA also noted that entering 
into exclusive service arrangements that provide commission payments of 
as much as 65 percent of all telephone revenue ``creates an ethical 
quagmire'' for prison administrators.\12\
---------------------------------------------------------------------------
    \9\ Letter from Robert D. Evans, Director, Governmental Affairs 
Office, ABA, to Rep. Bobby Rush, at 2 (Jan. 31, 2006) (``ABA Letter'').
    \10\ See, e.g., Editorial, Keeping in Touch With a Parent in 
Prison, New York Times, Jan. 14, 2006, at A14.
    \11\ ABA Letter at 2.
    \12\ Id.
---------------------------------------------------------------------------
H.R. 1133 Would Help To Achieve The Same Goal As S. 251
    S. 251 would authorize states to petition the FCC to permit the 
installation of jamming equipment to block cell phone use in 
correctional facilities. The purpose of the bill is to eliminate 
prisoners' use of cell phones, which has reportedly become a problem 
because of some prisoners' use of cell phones for illegal purposes. It 
is certainly true that some cell phones apparently have been smuggled 
into prisons for illegal purposes, but CURE is not aware of any studies 
or investigations demonstrating the typical intended uses of cell 
phones in prisons overall.
    CURE believes, based on its awareness of prisoners' and their 
families' struggles to reduce their telephone bills, that most of the 
smuggled cell phones are being used by incarcerated individuals to stay 
in touch, at a more reasonable cost, with families and friends--the 
very people they will need in order to make a successful transition to 
the free world. In other words, current prison telephone policies, 
particularly those that support the egregiously high rates charged for 
long distance calls, may be responsible for much of the contraband cell 
phone usage in prisons. While the Nation spends millions of dollars on 
projects to smooth the transition to the free world, we should be 
fostering the contacts that will help with those transitions. More 
intelligent and humane inmate calling service rates and policies would 
not only reduce recidivism by fostering prisoners' ties to the 
community, but would also reduce the incentive to smuggle cell phones 
into prisons.
    Like the Second Chance Act passed last year, H.R. 1133 would enable 
prisoners to maintain the strong family and community ties necessary 
for rehabilitation. Because more reasonable long distance inmate 
calling rates would reduce the incentive to bring cell phones into 
prisons, CURE urges the Commerce Committee to incorporate H.R. 1133 
into its consideration of S. 251. CURE would be happy to work with the 
Committee to explore any and all possible solutions to making all 
interstate inmate phone calls affordable for families of prisoners and 
to reduce illegal cell phone use in correctional facilities.
                                 ______
                                 
   Prepared Statement of Jay Salkini, President and Chief Executive 
                        Officer, Tecore Networks
    I would like to thank Chairman Rockefeller, Ranking Member 
Hutchison and the distinguished members of the Senate Committee on 
Commerce, Science, and Transportation for giving me the opportunity to 
submit testimony on the Safe Prisons Communications Act pursuant to the 
Committee hearing on July 15, 2009. I would also like to express my 
appreciation for the work you are doing to address a serious public 
safety issue that is truly national in its scope.
    Tecore Networks is a global supplier of wireless technologies with 
a proud history of doing business in the great states of Maryland, 
Texas and Florida. We have served commercial mobile service providers 
and government agencies since 1991. Cellular technology is 
proliferating around the globe, and its growth can create unintended 
consequences. However, solutions should be considered carefully and 
with appropriate technical information in order to maintain the 
benefits that this technology provides.
    Based on our successful deployment of a proprietary and legal 
technology to address contraband cell phone use in a correctional 
system, we have become more aware of the scope and size of the problem 
throughout the United States. In fact, our analysis shows that as many 
as 27,000 cell phones might have been smuggled and used behind bars 
nationwide in 2008, with each phone typically being shared among 
multiple inmates.
    While I am in complete agreement with the intent of S. 251, I am 
concerned about the emphasis on jamming as a solution. Jamming is a 
specific technology which would prevent unwanted cell phone calls by 
blocking any and all cellular communications in the covered geography. 
Unfortunately, due to the difficulty in effectively modulating jamming 
devices, such communications would likely include some combination of 
calls:

  <bullet> by legitimate customers of the commercial operators who 
        happen to be in an area covered by the jamming signal;

  <bullet> to 911;

  <bullet> from corrections personnel or other authorized individuals 
        inside the correctional facility; and

  <bullet> intended for lawful intercept, a critical tool for public 
        safety.

    In short, jamming poses significant risks to the public which may 
outweigh potential benefits. By emphasizing jamming in the legislation, 
it could well become the focus of corrections officials seeking a 
solution despite the availability of more effective, less invasive 
technologies. I respectfully urge the Committee to expand the scope of 
applicable solutions to include those which control or manage 
unauthorized communications rather than simply jam them.
    At the same time, I fully support the corrections officers of this 
Nation in their quest for effective tools to address this problem. It 
is clear that these men and women have gone to considerable lengths to 
try alternative solutions, including body orifice scanners, cell-phone 
sniffing dogs and cell-phone detection technologies. Evidence shared 
during the hearing revealed that simply confiscating a cell phone is 
not enough; the critical component allowing communication on many 
phones is the subscriber identity module (SIM) card, which is the size 
of a postage stamp, can easily be removed from the phone, and can be 
used by an inmate on any compatible device.
    An effective solution should:

  <bullet> prevent unauthorized communications without the need to 
        locate the device;

  <bullet> permit legitimate communications including calls from 
        authorized devices, to 911 or by consumers not subject to the 
        restrictions of the correctional facility; and

  <bullet> to the extent possible, provide forensic information to 
        assist law enforcement, such as device and SIM serial numbers, 
        originating and terminating telephone numbers, and--with the 
        appropriate warrants--capture and monitoring of communication 
        traffic including voice, text messaging and data.

    The trials of alternative technologies have also revealed that 
there are multiple stakeholders in an effective solution to the problem 
of contraband cell phones in prisons. The requirements of the 
correctional institution are central to any remedy. However, based on 
Tecore's experience in providing communications systems, I also 
recognize and support the needs of the following parties:

  <bullet> commercial mobile service providers must be afforded their 
        rights and allowed to discharge their responsibilities to serve 
        valid subscribers; this includes avoiding the liability of 
        failing to complete an emergency call for such a subscriber

  <bullet> public safety agencies must also be assured that frequency 
        bands assigned to them will be unimpeded; and

  <bullet> regulators must be provided clear direction and mandates in 
        line with the resources they have to fulfill them.

    In summary, I respectfully request that you strengthen the Safe 
Prisons Communications Act by broadening the scope of solutions beyond 
jamming to include those which control or manage unauthorized 
communications, and by addressing the needs of all stake holders 
including commercial mobile service providers, public safety agencies 
and regulators.
    Thank you.
                                 ______
                                 
                                     State of West Virginia
                         Department of Military Affairs and
                     Public Safety--Division of Corrections
                                      Charleston, WV, July 13, 2009

Hon. Jay Rockefeller,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Hutchison,

    I am writing to express my support for the ``Safe Prisons 
Communications Act of 2009'' that has been introduced in the U.S. 
Senate. I also want to thank you for holding a hearing this week on 
this important legislation. Prisons are being overwhelmed by hundreds 
of cell phones at this time, and this legislation will provide 
correction officials across the country with the best tool to impede 
the illegal use of contraband cellular phones by prison and jail 
inmates.
    In recent years, the number of contraband cell phones smuggled into 
correctional facilities has skyrocketed. These phones represent a 
threat to the security of the facility, staff, public officials, and 
the victims of crime. Once in possession of a cell phone, inmates have 
been able to conduct any number of crimes, ranging from intimidating 
witnesses, harassing victims, threatening elected victims, and engaging 
in gang activity.
    Since 2006, there have been 13 incidents due to the presence of 
cell phones in West Virginia correctional facilities, although 
fortunately none of them resulted in high profile crimes. However, cell 
phones are now one of the most sought after items of contraband by 
inmates in custody. To address the serious threat that these devices 
represent, the West Virginia Canine Unit is in the process of training 
two dogs to detect cell phones.
    Although correctional agencies make every effort to prevent the 
introduction of cell phones into our prison systems, only cell phone 
jamming technologies stop these dangerous phone calls. State correction 
agencies should be able to go through the same process that Federal 
agencies do and petition for a waiver. For these reasons, the West 
Virginia Department of Correction is requesting your support for 
passage of the ``Safe Prisons Communications Act of 2009.'' I look 
forward to working with you to further the safety of West Virginia 
correctional officials and the public.
            Sincerely,
                                            Jim Rubenstein,
                                                      Commissioner.
                                 ______
                                 
                                             Justice Center
                           The Council of State Governments
                                                     August 4, 2009

Hon. Jay Rockefeller,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Hutchison,

    The Council of State Governments Justice Center is writing to 
express its support for S. 251, the Safe Prisons Communications Act of 
2009, which is scheduled for mark up by the Committee on Wednesday, 
August 5, 2009. Prisons are being overwhelmed by hundreds of cell 
phones at this time, and this legislation will provide correction 
officials across the country with the best tool to impede the illegal 
use of contraband cellular phones by prison and jail inmates.
    In recent years, the number of contraband cell phones smuggled into 
correctional facilities has skyrocketed. These phones represent a 
threat to the security of the facility, staff, public officials, and 
the victims of crime. In Maryland an inmate on trial for murder 
orchestrated the assassination of a witness against him using a 
smuggled cell phone. The witness was gunned down outside his home, and 
in front of his children. In Tennessee, an inmate used a cell phone to 
plot an escape that resulted in the death of a corrections officer. And 
in June of last year, inmates in three Oklahoma facilities coordinated 
an outbreak of violence across the system, resulting in three deaths 
and multiple injuries.
    It has recently been brought to our attention that many of the cell 
phones confiscated have been found in the possession of sex offenders. 
In the past 6 months, 81 sex offenders in Texas were found with 
contraband cell phones. And last year, 111 sex offenders in South 
Carolina were disciplined for the possession of contraband cell phones. 
Unrestricted and unmonitored communication and access to the Internet 
by convicted sex offenders is high public safety risk.
    The Justice Center hopes that you will support the Safe Prisons 
Communications Act of 2009 and give our correctional officials the 
ability to protect the public and themselves.
            Sincerely,
                                         Rep. Jerry Madden,
                                  Texas State House of Representatives.
                                 ______
                                 
                   South Carolina Department of Corrections
                                        Columbia, SC, July 13, 2009

Hon. Jay Rockefeller,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Hutchison,

    I am writing to express my support for the ``Safe Prisons 
Communications Act of 2009'' that has been introduced in the U.S. 
Senate. I also want to thank you for holding a hearing this week on 
this important legislation. Prisons are being overwhelmed by hundreds 
of cell phones at this time, and this legislation will provide 
correction officials across the country with the best tool to impede 
the illegal use of contraband cellular phones by prison and jail 
inmates.
    In recent years, the number of contraband cell phones smuggled into 
correctional facilities has skyrocketed. These phones represent a 
threat to the security of the facility, staff, public officials, and 
the victims of crime. Once in possession of a cell phone, inmates have 
been able to conduct any number of crimes, ranging from intimidating 
witnesses, harassing victims, threatening elected victims, and engaging 
in gang activity.
    The availability and use of cell phones in South Carolina 
correctional facilities has had serious consequences. Inmates in South 
Carolina have used cell phones to conduct tens of thousands of dollars 
of credit card fraud, coordinate escapes, and to more precisely smuggle 
contraband like drugs and escape tools into the state's prisons. We 
have worked to raise awareness of the problems associated with cell 
phone contraband by installing metal detectors, X-ray machines and 
mandatory searches of all personnel entering South Carolina's medium- 
and maximum-security prisons. As the techniques for smuggling cell 
phones into prisons have become more creative, so too has the 
Department.
    Although correctional agencies make every effort to prevent the 
introduction of cell phones into our prison systems, only cell phone 
jamming technologies stop these dangerous phone calls. For these 
reasons, the South Carolina Department of Correction is requesting your 
support for passage of the ``Safe Prisons Communications Act of 2009.'' 
I look forward to working with you to further the safety of South 
Carolina correctional officials and the public.
            Sincerely,
                                                Jon Ozmint,
                                                          Director.
                                 ______
                                 
                           Kansas Department of Corrections
                                       Topeka, KS, January 14, 2009
Sam Brownback,
U.S Senator,
Washington, DC.

Dear Senator Brownback:

    The possession and use of cell phones by inmates is becoming an 
increasingly serious and significant security risk in Kansas 
correctional facilities and in correctional facilities across the 
country. An escape from a medium security facility at Lansing in 
February 2006, and an escape from an administrative segregation unit at 
El Dorado in October 2007, were both facilitated by use of cell phones 
by inmates. During the period from July 1, 2007 through June 30, 2008, 
a total of 86 cell phones were found within Kansas correctional 
facilities, either in the possession of inmates or in areas accessible 
to Inmates. From July 1, 2008 through December 31, 2008, 42 cell phones 
were found.
    In addition to arranging and coordinating escape plans, cell phones 
can be used by inmates to arrange for the introduction of contraband, 
to harass and intimidate crime victims and others in the community, and 
to carry out criminal activities in the community. Possession and use 
of cell phones by Kansas inmates is prohibited and is a violation of 
department rules and state statute. However, cell phones have been 
introduced into Kansas correctional facilities and are being used by 
inmates.
    To prevent inmates from being able to successfully communicate with 
others through the use of contraband cell phones, the Kansas Department 
of Corrections is supportive of legislation that will allow cell phones 
signals in correctional facilities to be jammed. Currently the 
Communications Act of 1934 and FCC rules ban the technology that can 
jam cell phones signals within a targeted area. We seek amendments to 
the law to allow cell phone jamming of calls made from correctional 
facilities. This capability is necessary for public safety reasons. The 
technology for such jamming is available and has been demonstrated at 
facilities operated by the South Carolina Department of Corrections.
    Your assistance regarding this issue is requested. Please let me 
know if you have any questions.
            Sincerely,
                                            Roger Werholtz,
                                                         Secretary.
Cc: Governor Sebelius
Association of State Correctional Administrators
Attorney General Six
                                 ______
                                 
                          The Commonwealth of Massachusetts
             Executive Office of Public Safety and Security
                                   Department of Correction
                                      Milford, MA, January 21, 2009
Hon. John F. Kerry,
United States Senator,
Boston, MA.

Dear Senator Kerry:

    I am writing to relay to you my support for S. 251 the ``The Safe 
Prisons Communications Act of 2009''. The passage of this legislation 
would allow corrections' facilities to operate a wireless jamming 
device to jam cell phones being used by individuals incarcerated in a 
correctional institution and will severely curtail the use of cell 
phones by inmates fox criminal and/or fraudulent reasons.
    I have witnessed a sharp increase in the number of cell phones 
smuggled into our prisons over the past several years. In addition to 
being used by incarcerated criminal enterprises to conduct criminal and 
fraudulent activities, these cell phones are used by inmates to harass 
and threaten past victims, past witnesses and public officials. This 
uncontrolled access to a cell phone by inmates poses a serious threat 
to the safe operation of a correctional facility as well as to the 
overall public safety of our citizens.
    It is my opinion that this legislation, as written, provides 
correctional agencies with a viable mechanism to make cell phones 
useless on prison grounds and still provides safeguards that the 
integrity of wireless networks outside of a prison's walk will be 
maintained.
    In closing, I ask your support of the passage of this legislation. 
If this legislation were to become law, it would provide correctional 
administrators, like me, with a valuable tool to be used to combat the 
current use of contraband cell phones for criminal activity.
    I thank you for your consideration in this matter.
            Sincerely,
                                          Harold W. Clarke,
                                                      Commissioner.
                                 ______
                                 
                          The Commonwealth of Massachusetts
             Executive Office of Public Safety and Security
                                   Department of Correction
                                      Milford, MA, January 21, 2009
Hon. Edward M. Kennedy,
United States Senator,
Boston, MA.

Dear Senator Kennedy:

    I am writing to relay to you my support for S. 251 the ``The Safe 
Prisons Communications Act of 2009''. The passage of this legislation 
would allow correctional facilities to operate a wireless jamming 
device to jam cell phones being used by individuals incarcerated in a 
correctional institution and will severely curtail the use of cell 
phones by imitates for criminal and/or fraudulent reasons.
    I have witnessed a sharp increase in the number of cell phones 
smuggled into our prisons over the past several years. In addition to 
being used by incarcerated criminal enterprises to conduct criminal and 
fraudulent activities, these cell phones are used by inmates to harass 
and threaten past victims, past witnesses and public officials. This 
uncontrolled access to a cell phone by inmates poses a serious threat 
to the safe operation of a correctional facility as well as to the 
overall public safety of our citizens.
    It is my opinion that this legislation, as written, provides 
correctional agencies with a viable mechanism to make cell phones 
useless on prison grounds and still provides safeguards that the 
integrity of wireless networks outside of a prison's was will be 
maintained.
    In closing, I ask your support of the passage of this legislation. 
If this legislation were to become law, it would provide correctional 
administrators, like me, with a valuable tool to be used to combat the 
current use of contraband cell phones for criminal activity.
    I thank you for your consideration in this matter.
            Sincerely,
                                          Harold W. Clarke,
                                                      Commissioner.
                                 ______
                                 
                          Arkansas Department of Correction
                                   Pine Bluff, AR, January 20, 2009
Hon. Blanche Lincoln,
U.S. Senate,
Washington, DC.

Dear Senator Lincoln:

    I recently sent you a letter requesting your assistance in amending 
a 1934 Federal law that makes it illegal to jam radio signals, 
including cellular telephone signals.
    Senate Bill #S. 251 and House Bill #H.R. 560 have been entered 
regarding the above matter. We would appreciate very much your support 
of these bills, as cell phones are an ongoing problem and a major 
security threat to correctional facilities in Arkansas. The use of a 
cell phone aided an Arkansas inmate in his escape in October of 2008. 
Cell phones are confiscated almost every day at our units.
    Your assistance in this matter is greatly appreciated.
            Sincerely,
                                              Larry Norris,
                                                          Director.
                                 ______
                                 
                          Arkansas Department of Correction
                                   Pine Bluff, AR, January 20, 2009
Hon. Mark Pryor,
U.S. Senate,
Washington, DC.

Dear Senator Pryor:

    I recently sent you a letter requesting your assistance in amending 
a 1934 Federal law that makes it illegal to jam radio signals, 
including cellular telephone signals.
    Senate Bill #S. 251 and House Bill #H.R. 560 have been entered 
regarding the above matter. We would appreciate very much your support 
of these bills, as cell phones are an ongoing problem and a major 
security threat to correctional facilities in Arkansas. The use of a 
cell phone aided an Arkansas inmate in his escape in October of 2008. 
Cell phones are confiscated almost every day at our units.
    Your assistance in this matter is greatly appreciated.
            Sincerely,
                                              Larry Norris,
                                                          Director.
                                 ______
                                 
                          Arkansas Department of Correction
                                  Pine Bluff, AR, December 17, 2008
Hon. Mark Pryor,
U.S. Senate,
Washington, DC.

Dear Senator Pryor:

    The Arkansas Department of Correction requests your assistance in 
amending a 1934 Federal law that makes it illegal to jam radio signals, 
including cellular telephone signals. As you know, cell phones are a 
major security threat to correctional facilities in Arkansas and across 
the country.
    Recently, use of cell phone aided the escape of an Arkansas inmate 
and thwarted his capture for 11 days. Cell phones are seized almost 
every day at our units, and their numbers are increasing. The phones 
not only further escapes, they can also lead to violence and other 
crimes both inside and outside of our facilities.
    At the state level, we are proposing legislation that would make it 
a crime for an inmate to have and use a cell phone. It is already a 
crime for someone to provide a cell phone to an inmate. While this 
legislation should certainly help deter cell phone possession, it is 
hardly a complete solution to the problem.
    Capabilities do exist that effectively jam cell phone signals, 
which in turn, renders them useless within a prison. These capabilities 
do not interfere with cell phone use outside prisons walls nor do they 
interfere with 911 emergency calls or law enforcement communications.
    But under the Communications Act of 1934, willfully or maliciously 
interfering with a radio communication is a crime. The law does not 
carve out exceptions for state governments; thus, the state of Arkansas 
cannot utilize a device that willfully interferes with cellular 
telephone signals, even for security reasons.
    This is consistent with Federal Communications Commission rulings 
involving the operation of cell phone jammers. For example, the FCC 
ruled in a recent decision that the Federal law does indeed prohibit 
operation of devices that interfere with cellular telephone signals. 
Cf.DPL Surveillance Equip., FCC Citation, No. DA 08-21202 (May 27, 
2008) concluded that U.S. Code Title 47, sections 302a and 333 bar the 
operation of jammers, except those operated by the Federal Government.
    It is likely the FCC has not authorized licensing procedures 
because section 333 criminalizes willful interference with a radio 
signal and a Federal agency cannot issue rules that purport to 
authorize conduct that Federal law explicitly prohibits. (See Ragsdale 
v. Wolverine World Wide, Inc., 535 U.S. 81, 86 (1997), which declares 
that a Federal regulation cannot stand if it is manifestly contrary to 
a Federal statute.)
    FCC spokesman Robert Kenny was quoted in the October 30, 2008, 
edition of the Austin American Statesman as saying, ``We have no 
authority to even grant it (a license permitting the operation of a 
cell phone jamming device) if we thought it was worthwhile or something 
that was warranted. It's likely going to take some level of action by 
Congress.''
    Based on the FCC's own acknowledgement, it will take Congressional 
action to enable Arkansas and other states to render cell phones 
nothing more than worthless contraband in state prisons. Without such 
action, Arkansas is left with less effective options to protect law-
abiding citizens from the threatening, harassing or retaliatory actions 
of murderers, rapists, drug dealers, thieves and other felons in its 
state prisons.
    I look forward to working with you on this matter. If you have any 
questions about steps my office has taken on this issue, please do not 
hesitate to contact me.
            Sincerely,
                                           Larry B. Norris,
                                                          Director.
                                 ______
                                 
                          Arkansas Department of Correction
                                  Pine Bluff, AR, December 17, 2008
Hon. Blanche Lincoln,
U.S. Senate,
Washington, DC.

Dear Senator Lincoln:

    The Arkansas Department of Correction requests your assistance in 
amending a 1934 Federal law that makes it illegal to jam radio signals, 
including cellular telephone signals. As you know, cell phones are a 
major security threat to correctional facilities in Arkansas and across 
the country.
    Recently, use of cell phone aided the escape of an Arkansas inmate 
and thwarted his capture for 11 days. Cell phones are seized almost 
every day at our units, and their numbers are increasing. The phones 
not only further escapes, they can also lead to violence and other 
crimes both inside and outside of our facilities.
    At the state level, we are proposing legislation that would make it 
crime for an inmate to have and use a cell phone. It is already a crime 
for someone to provide a cell phone to an inmate. While this 
legislation should certainly help deter cell phone possession, it is 
hardly a complete solution to the problem.
    Capabilities do exist that effectively jam cell phone signals, 
which in turn, renders them useless within a prison. These capabilities 
do not interfere with cell phone use outside prisons walls nor do they 
interfere with 911 emergency calls or law enforcement communications.
    But under the Communications Act of 1934, willfully or maliciously 
interfering with a radio communication is a crime. The law does not 
carve out exceptions for state governments; thus, the state of Arkansas 
cannot utilize a device that willfully interferes with cellular 
telephone signals, even for security reasons.
    This is consistent with Federal Communications Commission rulings 
involving the operation of cell phone jammers. For example, the FCC 
ruled in a recent decision that the Federal law does indeed prohibit 
operation of devices that interfere with cellular telephone signals. 
CfDPL, Surveillance Equip., FCC Citation, No. DA 08-21202 (May 27, 
2008) concluded that U.S. Code Title 47, sections 302a and 333 bar the 
operation of jammers, except those operated by the Federal Government.
    It is likely the FCC has not authorized licensing procedures 
because section 333 criminalizes willful interference with a radio 
signal and a Federal agency cannot issue rules that purport to 
authorize conduct that Federal law explicitly prohibits. (See Ragsdale 
v. Wolverine World Wide, Inc., 535 U.S. 81, 86 (1997), which declares 
that a Federal regulation cannot stand if it is manifestly contrary to 
a Federal statute.)
    FCC spokesman Robert Kenny was quoted in the October 30, 2008, 
edition of the Austin American Statesman as saying, ``We have no 
authority to even grant it (a license permitting the operation of a 
cell phone jamming device) if we thought it was worthwhile or something 
that was warranted. it's likely going to take some level of action by 
Congress.''
    Based on the FCC's own acknowledgement, it will take Congressional 
action to enable Arkansas and other states to render cell phones 
nothing more than worthless contraband in state prisons. Without such 
action, Arkansas is left with less effective options to protect law-
abiding citizens from the threatening, harassing or retaliatory actions 
of murderers, rapists, drug dealers, thieves and other felons in its 
state prisons.
    I look forward to working with you on this matter. If you have any 
questions about steps my office has taken on this issue, please do not 
hesitate to contact me.

                                           Larry B. Norris,
                                                          Director.
                                 ______
                                 
               State of Tennessee--Department of Correction
                                       Nashville, TN, March 3, 2009
Hon. Bob Corker,
U.S. Senate,
Washington, DC.

Dear Senator Corker:

Subject: Cell Phones in Prisons

    I am writing you to request your support for the ``Safe Prisons 
Communications Act of 2009'' that has been recently filed by Senators 
Kay Bailey Hutchinson and Jim DeMint in the Senate and by 
Representative Kevin Brady in House of Representatives. The number of 
cell phones in state and Federal facilities across the country is 
continuing to rise at an alarming rate. These phones represent a threat 
to the security of the facility, staff, and victims of crime. The act 
will provide wardens and superintendents with the authority to operate 
wireless jamming devices in our correctional facilities that will 
greatly reduce the criminal activities that are currently being conduct 
inside and outside our facilities.
    During the last year, the Tennessee Department of Correction 
recovered approximately 650 cellular (prepaid and contract) telephones 
and that number is increasing. In addition to safety concerns, the 
presence of cellular telephones generates financial obligation issues 
with inmates in prison.
    We believe that these phones are routinely and primarily being 
utilized to engage in criminal activity, including but not limited to, 
drug trafficking, Strategic Threat Group (STG) organization violence, 
and credit card fraud. Inmates are also using the camera feature of the 
cell phone to take pictures of security features such the location of 
security cameras. We do not believe that inmates are using cellular 
telephones to primarily circumvent the inmate telephone system.
    There have been proven cases of STG affiliated ordered ``hits'' on 
the streets from the inmates who possessed these phones inside of a 
prison. There have been two (2) correctional staff homicides during 
which cellular phones were used in the commission of an escape.
    With the increased technology that is being attached to these 
phones, inmates have Internet access capability which permits them 
unlimited access and contact to continue their illegal activities. We 
have received numerous complaints from crime victims that inmates are 
maintaining websites such as MySpace, Facebook, etc. through their 
Internet capabilities provided by these cellular phones.
    Prisons are being overwhelmed by hundreds of cell phones at a time, 
and simply locating and removing cell phones one by one is a difficult 
and constant challenge.
    For these reasons, the Tennessee Department of Correction is 
requesting your support for passage of the ``Safe Prisons 
Communications Act of 2009.''
            Sincerely,
                                          George M. Little,
                                                      Commissioner.
pc: George and Camille Camp--ASCA
John Morgan, Deputy to the Governor
Pat Miller, Senior Advisor and Director of Legislative Affairs
Steve Elkins, Legal Counsel to the Governor
                                 ______
                                 
               State of Tennessee--Department of Correction
                                       Nashville, TN, March 3, 2009
Hon. Lamar Alexander,
U.S. Senate,
Washington, DC.

Dear Senator Alexander:

Subject: Cell Phones in Prisons

    I am writing you to request your support for the ``Safe Prisons 
Communications Act of 2009'' that has been recently filed by Senators 
Kay Bailey Hutchinson and Jim DeMint in the Senate and by 
Representative Kevin Brady in House of Representatives. The number of 
cell phones in state and Federal facilities across the country is 
continuing to rise at an alarming rate. These phones represent a threat 
to the security of the facility, staff, and victims of crime. The act 
will provide wardens and superintendents with the authority to operate 
wireless jamming devices in our correctional facilities that will 
greatly reduce the criminal activities that are currently being conduct 
inside and outside our facilities.
    During the last year, the Tennessee Department of Correction 
recovered approximately 650 cellular (prepaid and contract) telephones 
and that number is increasing. In addition to safety concerns, the 
presence of cellular telephones generates financial obligation issues 
with inmates in prison.
    We believe that these phones are routinely and primarily being 
utilized to engage in criminal activity, including but not limited to, 
drug trafficking, Strategic Threat Group (STG) organization violence, 
and credit card fraud. Inmates are also using the camera feature of the 
cell phone to take pictures of security features such the location of 
security cameras. We do not believe that inmates are using cellular 
telephones to primarily circumvent the inmate telephone system.
    There have been proven cases of STG affiliated ordered ``hits'' on 
the streets from the inmates who possessed these phones inside of a 
prison. There have been two (2) correctional staff homicides during 
which cellular phones were used in the commission of an escape.
    With the increased technology that is being attached to these 
phones, inmates have Internet access capability which permits them 
unlimited access and contact to continue their illegal activities. We 
have received numerous complaints from crime victims that inmates are 
maintaining websites such as MySpace, Facebook, etc. through their 
Internet capabilities provided by these cellular phones.
    Prisons are being overwhelmed by hundreds of cell phones at a time, 
and simply locating and removing cell phones one by one is a difficult 
and constant challenge.
    For these reasons, the Tennessee Department of Correction is 
requesting your support for passage of the ``Safe Prisons 
Communications Act of 2009.''
            Sincerely,
                                          George M. Little,
                                                      Commissioner.
pc: George and Camille Camp--ASCA
John Morgan, Deputy to the Governor
Pat Miller, Senior Advisor and Director of Legislative Affairs
Steve Elkins, Legal Counsel to the Governor
                                 ______
                                 
                                        State of New Jersey
                             Office of the Attorney General
                        Department of Law and Public Safety
                                         Trenton, NJ, July 27, 2009

Hon. John D. Rockefeller IV,
Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Hutchison:

    We are writing in support of S. 251, a bill that would allow States 
to jam cell phones that inmates illegally use within State correctional 
facilities. Specifically, the bill would allow States, with permission 
from the Federal Communications Commission, to install devices that 
prevent, jam, or interfere with wireless communications within the 
boundaries of a specific prison, penitentiary, or correctional facility 
within that State. This is a critical tool that law enforcement 
currently lacks. We, the Attorney General and the Commissioner of the 
Department of Corrections of the State of New Jersey, strongly urge the 
Senate to approve this bill and provide states with the ability to end 
cell phone transmissions within our prisons.
    In New Jersey, our efforts to remove violent gang offenders from 
our state's communities are undermined, as they are in many states, by 
the ability of those same individuals to communicate with fellow gang 
members and operate their criminal enterprises from within the prison 
walls by using cell phones. Using contraband cell phones, incarcerated 
individuals have the ability to intimidate witnesses through threats 
and violence, to conduct business as usual, and to coordinate escapes 
with persons on the outside. In one instance in our State, law 
enforcement was able to monitor a phone call placed by a gang inmate on 
a cell phone and subsequently joined by an inmate at a different prison 
and a third inmate at a county jail. This conference call is notable 
not only for the breadth of participation by incarcerated gang members 
at different correctional institutions, but for the topic of 
conversation, namely, to plot retaliation against an attack on a fellow 
gang member. Although this call was monitored, countless other 
conversations are not. To the contrary, much too often, the fact of the 
conversation, much less its content, remains unknown and undetected by 
law enforcement and corrections officials.
    Communication is critical to any criminal organization's ability to 
maintain its command and control of criminal activity on the streets. 
Cell phones in prisons, and the communications that they facilitate, 
therefore, are a prime engine of the growth and expansion of criminal 
gangs both in prisons and on the streets, At the same time, public 
safety is compromised because incarceration no longer thwarts the 
ability of a gang member or violent offender to terrorize a community.
    Given this reality, the authority to block cell phone transmissions 
from within a prison is the most effective manner for law enforcement 
and corrections officials to prevent an unknown quantity of calls. New 
Jersey law enforcement agencies, including the Department of 
Corrections, are collaboratively conducting investigations and 
operations inside and outside the prison walls to identify and sever 
connections between street gangs and prison gangs. Nonetheless, inmates 
with cell phones are able to operate in the gaps between those efforts, 
to communicate with persons outside the prison.
    While detection and location technologies are legal and available, 
they arc expensive and often cost-prohibitive to install on a facility-
wide basis, much less in numerous facilities across the state. More 
important, they will never be as effective in addressing the problem as 
the ability to simply prevent the communication from taking place. 
Instead, legislative action is required to enable State law enforcement 
and corrections officials to have the most effective technologies 
available to tackle the problem.
    We urge the Senate to give States the authority to block cell phone 
transmissions from prisons. Absent tools to combat the problem of cell 
phones in prisons, states will be limited in their ability to address 
this problem and to effectively stop communications between criminal 
organizations inside and outside of our correctional facilities.
            Sincerely yours,
                                              Anne Milgram,
                                                  Attorney General.
                                             George Hayman,
                                                      Commissioner,
                                             Department of Corrections.
cc: The Honorable Frank R. Lautenberg, United States Senator
The Honorable Robert Menendez, United States Senator
                                 ______
                                 
                                                      July 14, 2009

Hon. John D. Rockefeller IV,
Chairman,
Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Commerce, Science, and Transportation Committee,
Washington, DC.

Re: S. 251, The Safe Prisons Communication Act (SPCA)

Dear Senators Rockefeller and Hutchison:

    The undersigned organizations write to voice our strong opposition 
to S. 251, The Safe Prisons Communication Act (SPCA). The proposal to 
end the more than 75-year ban on deliberately interfering with 
authorized radio communications in the United States would place 
commercial and public safety communications in this country at needless 
risk. Not only do alternative means exist to address the problem of 
contraband cell phone use in prison, but the proposal to block cell 
phone use in prison by jamming will not achieve its objective of 
eliminating contraband cell phone use. As noted in a recent article in 
Wired Magazine: ``A few layers of tinfoil can shield a phone from the 
jamming signal.'' \1\
---------------------------------------------------------------------------
    \1\ Vince Beiser, ``Prisoners Run Gangs, Plan Escapes and Even 
Order Hits With Smuggled Cellphones,'' Wired, May 22, 2009 (``Beiser 
Wired'').
---------------------------------------------------------------------------
    Rather than rely on the self-serving promotions of a single company 
seeking to profit from this unfortunate security issue, prisons should 
work with cell phone providers to implement proven technological means 
to block and/or monitor contraband cell phone use within prisons. In 
addition, Congress should use this opportunity to address the real 
problem of overcharges for telephone calls from prisoners to their 
families and loved ones. The vast majority of contraband calls are made 
by prisoners to their families because prisoner families--often among 
society's poorest--must pay outrageous collect call charges.\2\ An 
approach that combined existing technology used in cooperation with 
cell phone companies, additional funds for prison security to fight the 
problem of contraband entering prisons in the first place, and reducing 
costs for authorized prisoner phone calls to reduce the need for 
contraband, will prove far more successful in the long run and will 
avoid putting our public safety and commercial wireless networks at 
risk.
---------------------------------------------------------------------------
    \2\ See Beiser Wired, See also Media Justice Fund and Funding 
Exchange Report, ``Criminal Charges: Excessive Criminal Phone Rates 
Take A Toll on Innocent Families (2009).
---------------------------------------------------------------------------
The Importance of An Absolute Ban On Jammers
    Since its passage, the Communications Act of 1934 absolutely 
prohibited in no uncertain terms any deliberate interference with a 
signal ``licensed or authorized . . . by the United States.'' \3\ This 
provision has made it possible for licensees to design our current 
complex system of radio communication, cellular service, and other 
wireless networks secure in the knowledge that no one will deliberately 
interfere with their signals. Consumers, in exchange, have enjoyed the 
use of cell phones and other wireless devices without fear that anyone 
will seek to deliberately interfere with the transmission. For example, 
many travelers now chose to use their own cell phones or wireless 
Internet connections, rather than pay traditionally higher rates 
charged by hotels. Public safety users likewise rely on the ability to 
use lifesaving wireless technologies without concern for jamming, a 
reliance that will continue to grow as new spectrum and new 
technologies become available to public safety and commercial users 
following the digital television transition and the clearing of the 700 
MHz band for new public safety and commercial uses.
---------------------------------------------------------------------------
    \3\ 47 U.S.C.  333.
---------------------------------------------------------------------------
    The introduction of legal cell phone jamming places this entire 
system at risk. History has shown that permitting the legal manufacture 
and sale of devices--even for limited purposes--will inevitably result 
in their becoming available on a mass consumer basis. For example, the 
use of wireless microphones in the broadcast bands is limited by FCC 
rule to a small number of licensed users and--in theory--strictly 
controlled to avoid possible interference with television viewing and 
other uses of the band. Despite these limitations, anyone can buy these 
microphones through retail stores and websites, and the number of 
unauthorized wireless microphones in the broadcast bands may well 
exceed 1 million.\4\
---------------------------------------------------------------------------
    \4\ See Informal Complaint and Petition for Rulemaking of the 
Public Interest Spectrum Coalition, WT Docket No. 08-167, at vi.
---------------------------------------------------------------------------
    Congress should not create the risk of a similar proliferation of 
unauthorized cell phone jammers. Only a complete prohibition on cell 
phone jammers has successfully limited the sale and deployment of them 
in this country. Despite their availability in other countries, use of 
cell phone jammers in this country is forced underground and does 
little to interfere with commercial or public safety wireless use.\5\ 
For this reason, both commercial and public safety licensees have 
consistently opposed the efforts of CellAntenna to receive a Special 
Temporary Authorization (STA) to test cell phone jammers in the United 
States.\6\ Only a uniform ban with no exceptions will prevent the 
widespread use of jammers over time.
---------------------------------------------------------------------------
    \5\ Even countries that prohibit civilian use but permit law 
enforcement and military use domestically have problems with cell phone 
jammers disrupting cell phone use. See, e.g., http://
www.methodshop.com/gadgets/reviews/celljammers/index.shtml.
    \6\ See, e.g., Letter of Chris Fisher, President, Association of 
Public Safety Officials--International, Inc., to Michael Copps, Acting 
Chairman, Federal Communications Commission (March 13, 2009).
---------------------------------------------------------------------------
CellAntenna's Claims That It Can Safely Block Contraband Calls Are 
        Highly Suspect
    CellAntenna, the private company driving the campaign to legalize 
cell phone jamming in the United States, insists that it can block 
commercial cell phone signals in prisons, without interfering either 
with lawful cell phone use outside of prison or with public safety use 
in or outside of prison. CellAntenna has provided no proof of its 
claims. Rather, CellAntenna has sought to leverage a genuine public 
safety concern for its own profit by conducting unscientific and 
unauthorized demonstrations in various prisons. While these 
``demonstrations'' allow CellAntenna to attract a fair amount of 
publicity,\7\ they do nothing to demonstrate the validity of 
CellAntenna's claims that it can affordably block contraband cell phone 
transmissions without interfering with public safety or legal wireless 
use.
---------------------------------------------------------------------------
    \7\ Given that the FCC has unambiguously stated that the 
manufacture, importation, transportation, marketing and use of cell 
phone jammers violates Federal law, it would appear that CellAntenna's 
numerous and highly publicized demonstrations are a felony which should 
result in fines and arrests rather than appearances at a Congressional 
hearing. See Public Notice, ``Sale or Use of Transmitters Designed to 
Prevent, Jam or Interfere With Cell Phone Communications Is Prohibited 
In The United States,'' DA-05-1776 (June 27, 2005), available at http:/
/hraunfoss.fcc.gov/edocs_public/attachmatch/DA-05-1776A1.pdf
---------------------------------------------------------------------------
    As spectrum experts have explained, jamming contraband cell phone 
signals without jamming authorized communications presents an extremely 
difficult engineering challenge.\8\ Cell phone signals use many bands, 
often proximate to or shared with public safety operations. To achieve 
its claims, CellAntenna's equipment must isolate the cell phone bands 
used by contraband phones, operating at sufficient power and with 
sufficient coverage to ensure that no transmissions will escape, while 
simultaneously avoiding any leakage into neighboring public safety 
bands, operating at sufficient power to ensure total coverage of the 
prison, but limiting power so that no energy escapes to create ``dead 
zones'' outside prisons or in areas used by guards.
---------------------------------------------------------------------------
    \8\ See Letter of The American Association of State Highway and 
Transportation Officials (AASHO) to Marlene Dortch, Secretary, Federal 
Communications Commission, filed in WT Docket No. 09-30 (March 18, 
2009).
---------------------------------------------------------------------------
    Existing cell phone jammers do not engage in such delicate and 
precise spectrum blocking. Cell phone jammers are relatively cheap 
devices that engage in continuous transmission on the selected 
frequencies, creating ``dead zones'' by overwhelming a cell phone's 
receiver. These devices rely on brute force, without regard to 
operations taking place on neighboring bands. CellAntenna's claims far 
exceed the capabilities of existing cell phone jammers (where legal), 
raising considerable doubts that they can perform under circumstances 
other then the controlled demonstrations it has very publicly 
conducted.
    CellAntenna will no doubt excuse itself by observing that the FCC 
has not granted it an authorization to conduct legal experiments--a 
fact which has not prevented CellAntenna from performing its 
demonstrations. But CellAntenna has neither applied for a genuine 
experimental license under which it could conduct real experiments, nor 
has CellAntenna conducted experiments in countries where cell phone 
jamming is legal.\9\ Rather CellAntenna has preferred to engage in a 
strategy of holding public demonstrations of questionable legality and 
no engineering value as a means of promoting its legislative aims.
---------------------------------------------------------------------------
    \9\ It is useful to contrast CellAntenna's behavior with that of 
advocates of unlicensed use of the broadcast white spaces. White spaces 
advocates scrupulously obeyed all FCC rules and regulations, and 
applied for (and received) limited experimental licenses to conduct 
genuine experiments which produced meaningful engineering data. Only 
after years of building on developed technologies, and supported by a 
broad set of industry stakeholders, did the Commission feel confident 
enough to authorize tests of prototypes in the field.
---------------------------------------------------------------------------
    Congress should not force the FCC to create rules to authorize this 
jamming technology based on the unsubstantiated claims of a single 
company. At the least, Congress should not require the FCC to respond 
to petitions within 60 days, and create final rules within one year, as 
required by S. 251.
    Finally, even if CellAntenna can jam signals with precision, 
prisoners have too many ways to evade jamming. Using commonly available 
materials such as aluminum foil or a roll of paper towel, a prisoner 
can block jamming signals and augment a contraband cell phone's 
transmission to a nearby cell tower. Furthermore, the widespread 
availability of contraband cell phones indicates the possibility of 
corrupt prison personnel, who could circumvent jammer technology in the 
same way they have circumvented existing security measures designed to 
prevent prisoner access to contraband phones.
Better Means Of Blocking Contraband Cell Phones Exist That Do Not Put 
        Public Safety or Commercial Services At Risk
    Given the importance of maintaining security in prisons, it might 
seem worth the risk to public safety and commercial services to 
authorize cell phone jamming in prisons if no other way existed. But 
existing cell phone technologies offer a better and safer alternative 
to CellAntenna's unproven precision jamming. In addition, Congress 
should address the underlying issues that make cell phone smuggling 
both possible and lucrative: inadequate funding of prison security, and 
the high cost to the families of prisoners when prisoners make legally 
authorized collect calls.
    Cell phone providers can already adjust cell phone networks so that 
only authorized handsets can connect to the network. This practice, 
known as ``white listing,'' will prevent any contraband phone from 
functioning without causing any interference to wireless systems. 
Alternatively, cell phone providers can log phone numbers of calls 
originating in prisons and submit these lists daily to appropriate 
prison officials to verify that no contraband hand sets are operating 
in the prison. This later approach has the added advantage that prison 
officials can secure warrants to monitor any calls originating from 
unauthorized handsets, assisting law enforcement in any investigation 
and helping to ferret out the underlying source of the contraband.
    At the same time, Congress should take this opportunity to address 
the underlying issues that create the problem of contraband handsets in 
the first place. First, Congress should provide adequate funds for 
prison security, so that contraband does not penetrate prisons in the 
first place. In addition, Congress can also address the demand for 
contraband phones by requiring companies that service prisons to charge 
reasonable long-distance prices to the innocent families of prisoners. 
As documented in a recent report by the Media Justice Fund and Funding 
Exchange, it can cost the family of a prison inmate $300 a month in 
collect charges to maintain minimal contact with an imprisoned father, 
mother, son or daughter. As further documented in Wired Magazine, the 
high cost of authorized telephone calls makes renting contraband cell 
phones in prison a lucrative business for prisoners and guards alike. 
While lowering the coast of legal phone calls between prisoners and 
families will not entirely eliminate the incentive to smuggle in 
contraband cell phones, it will help reduce the incentive and make the 
existing problem far more manageable.
Conclusion
    For all these reasons, the undersigned wish to make their 
opposition to CellAntenna's campaign to legalize cell phone jamming in 
this country a part of the public record in this hearing. For more than 
75 years, the total ban on deliberate interference with authorized 
wireless transmissions has allowed wireless technology to develop in 
the United States in a robust and economical fashion. Allowing the 
legal manufacture, importation and sale of jamming equipment will 
create a loophole that history shows the FCC will find impossible to 
close. Because existing means of addressing the problem offer a far 
greater hope of success without the risk, Congress should refrain from 
amending the ``jammer ban'' in 47 U.S.C.  333.
            Sincerely,

Harold Feld
Legal Director
Public Knowledge

Michael Calabrese
Vice President and Director Wireless Futures Program
New America Foundation

Sascha Meinrath
Director
Open Technology Institute

Jonathan Lawson
Executive Director
Reclaim the Media

Joshua Breitbart
Policy Director
People's Production House
  

Stephen Renderos
Organizer
Main Street Project

Amanda Deloney
Network Coordinator
Media Action Grassroots Network (MAG-NET)

Tracy Rosenberg
Acting Director
Media Alliance

Malkia Cyril
Executive Director
Center for Media Justice

  
  
  
      
                                 ______
                                 
                             CTIA--The Wireless Association
                                      Washington, DC, July 13, 2009
Julius Knapp,
Chief, Office of Engineering and Technology,
Federal Communications Commission,
Washington, DC.

RE: Experimental License Application of Tecore, Inc.
FCC File Number 0202-EX-PL-2009

Dear Mr. Knapp:

    CTIA--The Wireless Association (``CTIA'') respectfully submits 
this letter in support of the above-referenced experimental license 
application of Tecore Networks, Inc. (``Tecore''). CTIA supports the 
grant of this experimental license--on a fully coordinated basis with 
CTIA's affected members--to better develop a record on the capabilities 
of alternative technological solutions to the unlawful use of mobile 
devices within prisons. The possession and use of wireless devices by 
inmates in correctional facilities is a genuine and important issue, 
and CTIA supports the development and real-world testing of lawful 
solutions to stop the unauthorized use of these devices by inmates. 
CTIA submits that the testing of Tecore's proposed solution will enable 
interested stakeholders, including state and Federal corrections 
agencies, other interested administrative agencies, the Public Safety 
community, and wireless carriers, to gather important data on the 
ability of non-jamming technologies to mitigate and resolve the illicit 
use of wireless phones within prisons.
    CTIA recently hosted a day-long discussion among its members and 
several companies that have developed potential technologies for 
lawfully addressing the use of mobile devices within correctional 
facilities. Tecore was one of the presenters and indicated that its 
proposed solution would allow for the denial of access to the wireless 
network within a prison without the use of any jamming technology. To 
enable this capability, Tecore would deploy base station technology 
that would transmit a ``preferred'' signal covering the grounds of the 
prison and thereby locking any unauthorized communications traffic to 
its network's control. Tecore's demonstration of this capability, 
however, requires operating authority to transmit in the cellular (824-
849/869-894 MHz) and Personal Communications Service (``PCS'') (1850-
1910/1930-1990 MHz) bands, which Tecore seeks in its experimental 
license request.
    CTIA believes there is merit to Tecore's technological proposal and 
supports the grant of Tecore's experimental license request. Because 
Tecore must transmit in the cellular and PCS frequency bands, CTIA asks 
that the Federal Communications Commission (``Commission'') condition 
the experimental grant with a requirement to coordinate all operations 
with CTIA's affected members that hold cellular and PCS licenses in the 
market area of the test. CTIA has discussed this effort with its 
members and there is agreement that such coordination is feasible and 
that the underlying experimental testing would be desirable.
    CTIA expects that the proposed tests can gather significant data to 
help determine whether Tecore's technology could effectively manage 
cell phone usage in the prison environment. This exercise will help the 
Commission, the Maryland Department of Public Safety and Corrections, 
and other affected parties gauge the effectiveness of this solution. 
CTIA believes that these cooperative efforts will assist in the 
development of well-considered solutions and aid in the creation of a 
full record of the capabilities of lawful technologies that can aid 
corrections officials' efforts in combating cell phone usage within 
prisons.
    Thank you for your prompt attention to this matter. Please do not 
hesitate to contact me or Brian Josef with any questions.
            Sincerely,
                                Christopher Guttman-McCabe,
                                Vice President, Regulatory Affairs.
cc: Jim Schlichting
Ira Keltz
James Burtle
David Hu
Charles Mathias

                                  <all>
</pre></body></html>
